D
I                                                 EMPLOYMENT AND TRAINING
S
C                                                 ADMINISTRATION
U
S
S
I
O
N   Office of Inspector General—Office of Audit
D
R
A
F
T




                                                  ETR DID NOT ENSURE BEST VALUE IN
                                                  AWARDING SUB-CONTRACTS AT THE TURNER
                                                  JOB CORPS CENTER




                                                                     Date Issued:   September 30, 2011
                                                                  Report Number:      26-11-003-03-370
U.S. Department of Labor                                      September 2011
Office of Inspector General
                                                              ETR DID NOT ENSURE BEST VALUE IN AWARDING
Office of Audit
                                                              SUB-CONTRACTS AT THE TURNER JOB CORPS
                                                              CENTER

BRIEFLY…                                                      WHAT OIG FOUND
Highlights of Report Number 26-11-003-03-370, issued          ETR Turner improperly awarded all 3 of the sub-
to the Assistant Secretary, Employment and Training           contracts managed during our review period. For the
Administration (ETA).                                         three sub-contracts, we questioned $467,640 because
                                                              cost or price analysis and responsibility checks of the
WHY READ THE REPORT                                           sub-contractors’ ability to satisfactorily perform the
Education and Training Resources (ETR) operates the           sub-contracts were not performed. The three
Turner Job Corps Center (ETR Turner). This report             sub-contracts were for physician services for students.
discusses how ETR Turner did not ensure best value            As such, it was critical for the center to ensure its
was received by the government when awarding                  students received adequate care by evaluating the bids
sub-contracts and purchase orders. We questioned              based on the quality of services to be provided as well
costs, totaling $1,029,415, due to non-compliance with        as cost. We also questioned $10,803 for two
applicable sections of the Federal Acquisition                sub-contracts awarded by ETR corporate because the
Regulations (FAR). The report also discusses process          sub-contracts had not been competitively bid and
improvements ETR Turner, ETA, and Job Corps need              advertised.
to make to ensure ETR Turner’s future sub-contracts
and purchase order awards comply with applicable              Issues were found in the award of purchase orders to
sections of the FAR.                                          vendors for 44 of the 71 expenditures more than $3,000
                                                              we statistically selected. For 26 of these expenditures,
ETR’s current contract with Job Corps to operate the          which were covered by blanket purchase agreements
center covered the 5-year period from                         (BPA) awarded by Turner, required responsibility
July 1, 2005, to June 30, 2010. ETR Turner’s contract was     checks were not used to award the BPAs; for 10
extended to cover the 6-month period July 1, 2010, to         expenditures, the center could not justify why the
December 31, 2010. The contract value totaled                 invoices were split below the micro purchase threshold
approximately $107 million, including $40 million for two     of $3,000; for 4 expenditures, the center did not
base years, $21 million for each of three option years, and   adequately justify sole-source procurement; and for 4
$4.6 million for the contract extensions.                     expenditures, the center circumvented competitive
                                                              bidding by using improper bids. The 44 expenditures
                                                              totaled $550,972.
WHY OIG CONDUCTED THE AUDIT
Our audit objective was to answer the following
                                                              These conditions occurred because ETR Turner had not
question:
                                                              established a control environment, including procedures
                                                              and oversight, to ensure compliance with applicable
Did ETR Turner award sub-contracts and claim costs in
                                                              sections of the FAR. In addition, neither ETA contracting
accordance with the FAR?
                                                              personnel nor Job Corps regional staff adequately
                                                              monitored ETR Turner procurement activities.
Our audit work was conducted at the ETR Turner Job
Corps Center located in Albany, Ga., and at the Atlanta
Regional Office of Job Corps in Atlanta, Ga.                  WHAT OIG RECOMMENDED
                                                              We recommended the Assistant Secretary for Employment
                                                              and Training recover questioned costs as appropriate, and
READ THE FULL REPORT
                                                              direct ETR and the center to establish procedures, training,
To view the report, including the scope, methodology,
                                                              and oversight to ensure compliance with the FAR. We also
and full ETA and ETR responses, go to:
                                                              recommended that ETA contract personnel and Job Corps
                                                              regional staff review all future ETR Turner sub-contracts for
http://www.oig.dol.gov/public/reports/oa/2011/26-11-
                                                              FAR compliance and approval prior to award, and review
003-03-370.pdf.
                                                              ETR corporate contracts to determine if they are in
                                                              compliance with FAR.

                                                              ETA generally agreed with our findings and accepted in
                                                              full or in part all of our recommendations. ETR
                                                              disagreed with our findings and stated that the FAR
                                                              pertains to contract award decisions by government
                                                              contracting officers, and not to sub-contract award
                                                              decisions by ETR.
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK 





                                                            ETR Turner Sub-Contracting 

                                                           Report No. 26-11-003-03-370 

U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective — Did ETR Turner award sub-contracts and claim costs in accordance
with FAR? ...................................................................................................................... 4
         Turner JCC improperly awarded sub-contracts resulting in more than $1
         million in questioned costs.................................................................................... 4

         Finding — Turner JCC did not comply with applicable sections of the FAR
                   when awarding sub-contracts and purchase orders. .......................... 4

Recommendations ...................................................................................................... 12

Exhibit
         Exhibit Sub-Contracts and BPAs ........................................................................ 15

Appendices
         Appendix A Background ..................................................................................... 21
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23
         Appendix C Acronyms ........................................................................................ 27
         Appendix D ETA Response to Draft Report ....................................................... 29
         Appendix E ETR Response to Draft Report ....................................................... 33




                                                                                              ETR Turner Sub-Contracting
                                                                                             Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General




                            PAGE INTENTIONALLY LEFT BLANK




                                                          ETR Turner Sub-Contracting
                                                         Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                             Office of Inspector General
                                                     Washington, D.C. 20210




September 30, 2011

                               Assistant Inspector General’s Report

Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, N.W.
Washington, D.C. 20210

Job Corps is a residential training program for disadvantaged youth where employability
skills are developed. Its training activities and living facilities are housed within 125 centers
throughout the country. The Job Corps program is administered by the Department of
Labor’s Employment and Training Administration (ETA) per authorization provided by the
Workforce Investment Act (WIA). Within ETA, the program is managed by the Office of Job
Corps, which consists of a national office and 6 regional offices. The Job Corps program’s
budget for FY 2010 totaled about $1.7 billion.

Education and Training Resources (ETR) operates the Turner Job Corps Center (ETR
Turner). ETR’s contract with Job Corps to operate the center covered the 5-year period
from July 1, 2005, to June 30, 2010. ETR Turner’s contract was extended to cover the
6-month period July 1, 2010, to December 31, 2010. The contract value totaled
approximately $107 million, including $40 million for two base years, $21 million for each of
three option years, and $4.6 million for the contract extensions.

Center operators are required to adhere to applicable sections of the Federal Acquisition
Regulations (FAR) when procuring goods and services and claiming costs to ensure best
value is received by the Federal government. 1 In addition, center operators are required to
comply with Job Corps’ Policy and Requirements Handbook (PRH), contract provisions
specifying compliance with the FAR, and their own standard operating procedures (SOP).

Our audit objective was to answer the following question:

    Did ETR Turner award sub-contracts and claim costs in accordance with the FAR?

To address our audit objective, we reviewed criteria that were applicable to ETR Turner’s
procurement activities as of August 2011. This included Job Corps’ Policy and
Requirements Handbook (PRH), FAR, contract provisions, and ETR Turner’s standard
operating procedures (SOP). We also analyzed ETR and Job Corps Regional Office

1
 The OIG and ETA agreed that the FAR cited in this report are applicable to contracted center operators. The OIG is
conducting additional work to determine if other parts of the FAR are applicable and will report on these issues
separately.

                                                                                    ETR Turner Sub-Contracting
                                                         1                         Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General


assessments of ETR Turner operations and performed process walkthroughs with key ETR
corporate and ETR Turner officials, as well as ETA and Job Corps regional office staff. We
tested each of the sub-contracts and expenditures for compliance with the sections of the
FAR applicable to ETR Turner’s contract (Part 52, Solicitation Provisions and Contract
Clauses and Part 44, Subcontracting Policies and Procedures), including awarding sub-
contracts based on fair and open competition, cost or price analysis, and responsibility
checks of the sub-contractors ability to satisfactorily perform the contract.

The audit covered sub-contracts managed and expenditures incurred by ETR Turner from
January 1, 2010, to December 31, 2010. We examined all three sub-contracts, totaling
$467,640, managed by ETR Turner during this period. In addition, we reviewed the 2
sub-contracts, totaling $900,000, awarded by the ETR corporate office that covered the
four centers operated by ETR, including ETR Turner. In addition, we reviewed a statistical
sample of 71 expenditures more than $3,000, totaling $759,189, from a universe of 368
expenditures totaling $2.9 million. These expenditures were generally initiated by purchase
orders and were separate items from the three center sub-contracts and two corporate
sub-contracts we reviewed.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective. Our
objective, scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

ETR Turner did not ensure best value was received by the government when awarding
sub-contracts and purchase orders. Therefore, we questioned costs totaling $1,029,415
due to non-compliance with the FAR. However, based on our statistical sampling,
improperly awarded sub-contracts and purchase orders may be as high as $3,078,433. 2

ETR Turner improperly awarded all 3 of the sub-contracts managed during our review
period. For the three sub-contracts, we questioned $467,640 because the center had
not established fair and open competition. Specifically, cost or price analysis and
responsibility checks of past performance were not performed. The three sub-contracts
were for physician, mental health, and drug training services for students. As such, it
was critical for the center to ensure its students received adequate care and training by
evaluating the bids based on the quality of services to be provided as well as cost.
Possible responsibility checks included technical skills, experience, and performance in
the following areas: providing services to a diverse student population, ages 16-24;
conducting mental health assessments, supervising treatment plans, and providing
therapy; and providing assessment tools and effective intervention methods used in
dealing with students at risk of using drugs. For the two corporate sub-contracts

2
 A final determination will be made by ETA as to the amount of excess funds paid by contractor to be recovered
while recognizing the value of goods and services received.

                                                                                   ETR Turner Sub-Contracting
                                                        2                         Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



awarded by ETR, we questioned $10,803 because the contracts had not been
competitively bid and advertised.

Issues were found in the award of purchase orders to vendors for 44 of the 71 expenditures
over $3,000 we statistically selected. For 26 of these expenditures, which were covered by
blanket purchase agreements (BPA) awarded by Turner, required responsibility checks
were not used to award the BPAs; for 10 expenditures, the center could not justify why the
invoices were split below the micro purchase threshold of $3,000; for 4 expenditures, the
center did not adequately justify sole source procurement; and for 4 expenditures, the
center circumvented competitive bidding by using improper bids. The 44 expenditures
totaled $550,972. We are 95 percent confident that there were between 186 and 261
expenditures where vendor selection did not comply with the FAR, resulting in between
$2.0 and $2.6 million in improperly awarded purchase orders. Together with the 3
improperly awarded sub-contracts, the total costs for improperly awarded purchase orders
and sub-contracts may be as high as $3,078,433 ($478,433 plus $2.6 million).

These conditions occurred because ETR Turner had not established a control environment,
including procedures and oversight, to ensure compliance with applicable sections of the
FAR. In addition, neither ETA contracting personnel nor Job Corps regional staff
adequately monitored ETR Turner procurement activities for compliance with applicable
sections of the FAR.

We recommend the Assistant Secretary for Employment and Training recover questioned
costs as appropriate; direct ETR and ETR Turner to establish procedures, training, and
oversight to ensure compliance with applicable sections of the FAR; direct ETA contract
personnel and Job Corps regional staff to review all future ETR Turner sub-contracts for
FAR compliance and approval prior to award; and review ETR corporate contracts to
determine if they are in compliance with applicable sections of the FAR.

In response to the draft report, the Assistant Secretary for ETA agreed in full or in part
with our findings and accepted our recommendations. ETA will review ETR SOPs to
ensure they minimally meet the requirements of FAR Subpart 44.303 and FAR Subpart
52.244-5, ensure ETR provides appropriate procurement training, and provide
additional tools to ETA regional contracting officials to ensure a thorough review of
potential sub-contract agreements. In addition, ETA will provide ETR the opportunity to
provide additional information and will make a final determination as to the amount of
excess funds paid by the contractor to be recovered while recognizing the value of
goods and services received.

ETR disagreed with our findings and conclusions. ETR stated that each of the FAR we
cited pertained to contract award decisions by government contracting officers at the
prime contract level, and not to sub-contract award decisions by ETR. ETR said the
FAR requirements did not contractually flow-down to ETR and were not relevant to
ETR’s management and operation of ETR Turner.




                                                                  ETR Turner Sub-Contracting
                                                   3             Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



See Appendix D for ETA’s response in its entirety. See Appendix E for ETR’s response
in its entirety.

RESULTS AND FINDING

Objective — Did ETR Turner award sub-contracts and claim costs in accordance
            with FAR?

       Turner JCC improperly awarded sub-contracts resulting in more than $1 million in
       questioned costs.

Finding — Turner JCC did not comply with applicable sections of the FAR when
         awarding sub-contracts and purchase orders.

Based on our testing, ETR Turner maintained documentation to support claimed costs had
been incurred. However, the center improperly awarded all 3 of the sub-contracts it
managed during our review period. We questioned $467,640 because the center had not
established fair and open competition. Specifically, cost or price analysis and responsibility
checks of the sub-contractors’ ability to satisfactorily perform the contracts were not
performed. For the two corporate sub-contracts, we questioned $10,803 because the
sub-contracts had not been competitively bid. ETR Turner also did not comply with
applicable sections of the FAR when awarding purchase orders to vendors for 44 of the 71
expenditures over $3,000 we statistically selected. We questioned the $550,972 in costs for
the 44 expenditures. In total we questioned $1,029,415 in specific claimed costs relating to
ETR Turner’s non-compliance with applicable sections of the FAR. However, based on our
statistical sampling, the total costs for improperly awarded purchase orders and
sub-contracts may be as high as $3,078,433 ($478,433 plus $2.6 million).

These conditions occurred because ETR Turner had not established a control
environment, including procedures and oversight, to ensure compliance with applicable
sections of the FAR. Also, neither ETA contracting personnel nor Job Corps regional
staff adequately monitored ETR Turner procurement activities for compliance with
applicable sections of the FAR.

Job Corps Centers Are Required To Comply With Applicable Sections of the FAR

The FAR is applicable to Job Corps center operators because it is required by the PRH
and their contracts. The ETR contract to operate ETR Turner specifically states in
section E-6 Procurement and Property Management:

        The center shall establish systems to procure property, services, and
        supplies in a cost-efficient and environmentally-friendly manner in
        accordance with government policies. The contractor shall also establish
        systems to provide procedures for receipt and accountability of
        government-owed property, material, and supplies, in accordance with
        PRH 5.6.


                                                                  ETR Turner Sub-Contracting
                                                   4             Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





The PRH section 5.6 R1 states, “Center operators and OA/CTS contractors shall follow
all applicable procurement regulations, to include those contained in the FAR.”
Applicable FAR requirements for centers procuring supplies or services and claiming
costs include the following:

FAR Subpart 52.244-5, Competition in Subcontracting

    •		 FAR Subpart 52.244-5 as prescribed in FAR Subpart 44.204(c) – The Contractor
        shall select subcontractors (including suppliers) on a competitive basis to the
        maximum practical extent consistent with the objectives and requirements of the
        contract.

FAR Part 44, Subcontracting Policies and Procedures

    •		 FAR Subpart 44.202-2(a) (5) – Obtain adequate price competition or properly
        justify its absence.

    •		 FAR Subpart 44.202-2(a)(7) and FAR Subpart 9.104-1 – Obtain a sound basis
        for selecting and determining the responsibility of the particular subcontractor,
        including past performance, technical requirements, and ability to comply with
        proposed performance and delivery schedules.

    •		 FAR Subpart 44.202-2(a) (8) – Perform adequate cost or price analysis or price
        comparisons and obtain certified cost or pricing data and data other than certified
        cost or pricing data.

    •		 FAR Subpart 44.202-2(a) (11) – Adequately and reasonably translate prime
        contract technical requirements into subcontract requirements.

    •		 FAR Subpart 44.201-1(b) Consent requirements – If the contractor does not have
        an approved purchasing system, consent to subcontract is required by the
        contracting officer.

FAR Subpart 52.216-7, Allowable Cost and Payment

    •		 Subpart 52.216-7(a) Invoicing (sub-paragraph 1) – The Government will make
        payments to the Contractor in accordance with FAR Subpart 31.2.

FAR Subpart 31.2 Contracts with Commercial Organization

        •		 Subpart 31.201-2 Determining Allowability (sub-paragraph d) – A contractor is
            responsible for accounting for costs appropriately and for maintaining records,
            including supporting documentation, adequate to demonstrate that costs
            claimed have been incurred, and are allocable to the contract. The

                                                                   ETR Turner Sub-Contracting
                                                   5              Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



            contracting officer may disallow all or part of a claimed cost that is
            inadequately supported.

        •		 Subpart 31.201-3(a) Determining Reasonableness – A cost is reasonable if,
            in its nature and amount, it does not exceed that which would be incurred by
            a prudent person in the conduct of competitive business. No presumption of
            reasonableness shall be attached to the incurrence of costs by a contractor.

ETR Turner’s Non-Compliance Resulted in More Than $1 Million in Questioned Costs

We reviewed all three sub-contracts, totaling $467,640, managed by ETR Turner from
January 1, 2010, to December 31, 2010. We also reviewed two corporate sub-contracts
with $10,803 of expenditures claimed by ETR Turner during the audit period.
Additionally, we reviewed a statistical sample of 71 expenditures more than $3,000,
totaling $759,189, from a universe of 368 expenditures totaling $2.9 million.

ETR Turner did not consistently comply with applicable sections of the FAR resulting in
questioned costs totaling more than $1 million. Table 1 on the following page
summarizes the types of non-compliance and the number of instances and questioned
costs for each type.




                                                                     ETR Turner Sub-Contracting
                                                   6                Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





Table 1: Instances of FAR non-compliance resulting in questioned costs
                                 Sub-contracts more
                                                       Expenditures more than
              FAR                  than $25,000 /
                                                         $3,000 / amount of
        Non-compliance               amount of
                                                          questioned costs
                                  questioned costs
     Sub-contract award not
         based on proper            3 of 3 (100%)
                                                            Not applicable
       responsibility checks          $467,640
  FAR 44.202-2 (a) (7) and (11)
    Corporate BPA award not
         based on proper            2 of 2 (100%)
                                                            Not Applicable
       responsibility checks           $10,803
  FAR 44.202-2 (a) (7) and (11)
  Turner BPA award not based
     on proper responsibility                           Sample: 26 of 71 (36%)
                                   Not Applicable
              checks                                          $324,342
  FAR 44.202-2 (a) (7) and (11)
  Improper splitting of invoices                        Sample: 10 of 71 (14%)
                                   Not Applicable
  FAR 44.202-2 (a) (7) and (11)                                $55,160
     Inadequate sole source
                                                       Sample: 4 of 71 (0.06%)
            justification          Not Applicable
                                                               $61,800
  FAR 44.202-2(a) (7) and (11)
   Circumvented Competitive                            Sample: 4 of 71 (0.06%)
                                   Not Applicable
              Bidding                                         $109,669
             Totals                 5 of 5 (100%)       Sample: 44 of 71 (62%)
           $1,029,415                 $478,443                $550,972

Sub-contracts More Than $25,000 Where FAR Non-compliance Resulted in Questioned
Costs

As noted, we questioned $467,640 in costs for the three sub-contracts managed by
ETR Turner and $10,803 for two BPAs managed by ETR. The following are examples
of non-compliance with the FAR for both types of sub-contracts.

    •		 Sub-contracts managed by ETR Turner – In 2010, Clarence Calhoun, M.D. was
        awarded a one-year, $164,160 sub-contract to perform medical services for Job
        Corps students. The agreement was extended for 6 months with additional costs
        of $82,080. In awarding the initial sub-contract, ETR Turner requested bids on
        the FedBizOpps website and received three bids. Clarence Calhoun tied for
        lowest bid with the contracted physician on center at that time. Clarence
        Calhoun was awarded the sub-contract because ETR Turner had performance
        issues with the physician that was already on center.

        ETR Turner did not comply with the FAR when awarding the sub-contract to

                                                               ETR Turner Sub-Contracting
                                                   7          Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



        Clarence Calhoun. The center did not perform a cost or price analysis.
        Additionally, the center did not develop a means of rating the bids or performing
        responsibility checks on the past performance of the bidders. The sub-contract
        was for physician services for the center students. As such, it was critical for the
        center to ensure its students received adequate medical care by evaluating the
        bids based on the quality of services to be provided as well as cost. Potential
        responsibility checks for a physician include: experience providing services to a
        diverse student population, ages 16-24; evidence of performance on similar type
        contracts; and evidence of a license to practice in the state and of current liability
        insurance coverage.

        Although ETR Turner did not select the physician already on center due to past
        performance, the center had not developed a means of rating the bids or
        performing responsibility checks for all bidders. The award, made without proper
        bid evaluation, could result in equally poor or worse performance. As such, ETR
        Turner could not ensure the sub-contract award resulted in best value to the
        government and adequate medical care for its students. We questioned the cost
        for the initial contract and extension, or $246,240 ($164,160 + $82,080).

    The three sub-contracts were for physician, mental health, and drug training services
    for students. As such, it was critical for the center to ensure its students received
    adequate care and training by evaluating the bids based on the quality of services to
    be provided as well as cost.

    See Exhibit 1 for details on the other two sub-contracts where we questioned costs
    due to inadequate solicitation and evaluation.

    •		 BPAs managed by ETR – In 2010, ETR employed a procurement consultant,
        Above the Standards Procurement Group (Above the Standards), to obtain office
        supplies under a BPA for its four centers, including ETR Turner. The consultant
        selected large office supply vendors and submitted a Request for Proposal (RFP)
        to these specific vendors. The RFP requested prices for items listed on a pricing
        schedule. Above the Standards awarded a one-year $450,000 BPA to Staples
        Contract & Commercial, Inc. (Staples) because it was the only vendor to
        complete the pricing schedule. ETR Turner records indicate other vendors did
        not provide complete pricing information because they did not understand the
        pricing schedules or had other technical problems. As of our May 2011 fieldwork
        at ETR Turner, the center has claimed costs of $10,803 relating to the BPA
        awarded to Staples.

        ETR did not comply with applicable sections of the FAR when awarding the BPA
        to Staples. In awarding the BPA, Above the Standards did not perform a cost or
        price analysis supporting the basis for the award (FAR Subparts 44.202.2 (a)(5)
        and (a)(8)). There was no analysis performed supporting any review of the cost
        components. Without a proper cost or price analysis, there was no way of
        knowing whether the awarded cost was fair and reasonable (FAR Subpart


                                                                     ETR Turner Sub-Contracting
                                                   8                Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



        31.201-3(a)). Additionally, ETR did not develop a means of rating the bids and
        performing responsibility checks on past performance of the bidders (FAR
        Subparts 44.202-2 (a) (7) and (11) and Subpart 9.104-1). Vendors, other than
        those selected by Above the Standards, did not have the opportunity to bid on
        the BPA. Additionally, Staples was listed on the consultant’s website as one of its
        “premier vendors.” The consultant’s ongoing relationship with Staples indicated
        that it was not a fair and open competition.

        Based on FAR non-compliance, we questioned the $10,803 claimed under the
        BPA as of our May 2011 fieldwork at the center, and any additional costs claimed
        since that time.

        See Exhibit 1 for details on the other BPA that was not awarded in accordance
        with the FAR.

Expenditures more than $3,000 that Resulted in Questioned Costs

As noted, ETR Turner did not comply with applicable sections of the FAR when awarding
purchase orders to vendors for 44 of the 71 expenditures more than $3,000 tested. For 26
of these expenditures, which were covered by BPAs awarded by Turner, required
responsibility checks such as past performance were not used to award the BPAs; for 10
expenditures, the center could not justify why the invoices were split below the micro
purchase threshold of $3,000; for 4 expenditures, the center did not adequately justify sole
source procurement; and for 4 expenditures, the center circumvented competitive bidding
by using improper bids. The following are examples of each type of noncompliance:

    •		 Responsibility checks were not used to award center BPAs – From our sample of
        71 purchase orders, 26 (36 percent) were related to BPAs whose awards by ETR
        Turner were not in compliance with the FAR 44.202-2 (a) (7) and (11).
        Specifically, ETR Turner awarded $300,000 1-year BPAs to each of Glover Food
        Services, Sysco-Gulf Coast, and ACC Distributors for the purchase of food
        products. None of the three awards complied with the FAR, which require
        responsibility checks to evaluate bids on factors such as past performance.
        Additionally, the BPAs were not advertised and price information was not
        obtained and evaluated as required by the FAR. Without proper solicitation and
        evaluation, ETR Turner could not provide assurance that the government
        received best value for the three BPAs. Furthermore, Glover Food Services also
        provided classes and seminars to ETR Turner students as part of the center’s
        culinary arts program. Due to this relationship, awarding a BPA to Glover Food
        Services without proper solicitation and evaluation indicates a less than fair and
        open competition. Based on the non-compliance with the FAR, we questioned
        the $324,342 in costs claimed for the 26 expenditures.

    •		 Improperly split purchase orders to avoid soliciting bid requests – ETR Turner
        policies (SOP #5.6.1) require written bids for all purchases more than $3,000 and
        FAR Subparts 44.202-2 (a) (7) and (11) requires fair and open competition. ETR


                                                                   ETR Turner Sub-Contracting
                                                   9              Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



           Turner did not adhere to its policies and the FAR on 10 different occasions when
           the center split purchases, resulting in purchase orders under the $3,000
           threshold. For example, on January 7, 2010, purchase order numbers 3907
           ($2,565) and 3908 ($2,160) for safety shoes were awarded to National Rubber
           Footwear. The safety shoe purchase totaled $4,725, but since each purchase
           order was under $3,000 bids were not solicited. ETR Turner issued a single
           $4,725 check for payment. ETR Turner similarly split 9 other purchase orders. As
           such, we questioned the $55,160 in costs claimed for the 10 expenditures.

       •		 Inadequate justification for sole source – ETR Turner sole sourced 4 of the
           71 expenditures in our sample. These four sole-sourced expenditures were not in
           compliance with FAR requirements (44.202-2(a) (7) and (11)). Specifically, the
           center made three payments to New Learning School ($52,475) and one
           payment to Penn Foster, Inc ($9,325), for providing academic training and high
           school diplomas to students. Center records indicated bids were not solicited and
           the purchase orders were awarded without competition. The records did not
           include justification for the sole-source procurement as required by the FAR.
           Base on the non-compliance, we questioned the $61,800 claimed in costs for the
           four expenditures.

       •		 Circumvented competitive bidding by using improper bids – ETR Turner used
           improper bids for four expenditures. For two of the four, painting services (four
           invoices totaling $34,960) and carpeting ($9,120), the center used data submitted
           by the vendors for prior unrelated work to calculate the bid amounts. For a third
           expenditure for trash cans ($9,777), the center obtained one bid and compared it
           to prices listed on the internet by two other vendors. For the fourth expenditure
           (three invoices totaling $55,812), the center used a GSA approved vendors list to
           obtain two bids for dormitory mattresses and then selected a lower bid from a
           vendor that was not on the GSA list. None of these four methods complied with
           FAR requirements for fair and open competition and adequate cost or price
           analysis or price comparisons. As such, we questioned the $109,669 in costs
           claimed for the four expenditures.

In total, we questioned $550,972 in costs for the 44 expenditures. Based on our statistical
sample, we are 95 percent confident there were between 186 and 261 expenditures where
vendor selection did not comply with applicable sections of the FAR, resulting in between
$2.0 million and $2.6 million in improperly awarded purchase orders.3 Together with the 3
improperly awarded sub-contracts, the total cost for improperly awarded purchase orders
and sub-contracts may be as high as $3,078,433 ($478,433 plus $2.6 million).




3
    The midpoint estimate for our statistical sample is 224 expenditures and $2.3 million.

                                                                                        ETR Turner Sub-Contracting
                                                           10                          Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



ETR Turner Obtained Adequate Support Prior to Payments for Purchase Orders
between $3,000 and $25,000

We examined a statistical sample of 71 purchase orders for amounts between $3,000
and $25,000. For all 71 purchase orders examined, ETR Turner obtained the required
supporting documents prior to payment.

FAR Non-Compliance Caused By Weak Control Environment

These conditions occurred because ETR believed that the FAR applied only to
government contracting officers and was not applicable to ETR Turner. As such, ETR
Turner had not established a control environment, including procedures and oversight,
to ensure compliance with the applicable sections of the FAR. Moreover, ETR had not
established effective controls even though the results of DOL and internal reviews
identified procurement deficiencies and lack of management control in CYs 2008, 2009,
and 2010.

ETA reviews each center operator’s procurement systems every 3 years. If a center
operator’s procurement system is “approved,” ETA contracting officials reduce their
oversight of the center operator’s procurement activities. ETR’s procurement system
was reviewed and reported on (including ETA Turner) in July 2008 and June 2009.
Procurement deficiencies similar to our findings were reported for each review; including
ETR centers not complying with SOPs, not advertising publicly, not obtaining three bids,
and not performing cost or price analysis. As a result, Job Corps did not “approve”
ETR’s procurement system. Also, ETR conducted a Corporate Program Assessment of
ETR Turner in April 2010. This internal assessment identified problems with ETR
Turner’s purchase order processes, including incomplete bid documentation, changes
to purchase orders without required approvals, and insufficient advertising. In response
to the assessment, the center staff responsible for procurement was provided training
on best procurement practices and how to conduct internal procurement audits.
However, based on interviews with attending staff and review of the assessment report
and training material, we determined that neither the assessment nor training addressed
the awarding of sub-contracts and purchase orders in compliance with the FAR.

We found that ETA contracting personnel and Job Corps regional staff can improve its
monitoring of ETR Turner procurement activities. The Job Corps regional office did not
review the procurement process at ETR Turner during its last center assessment in
2008. ETR Turner did submit its sub-contracts to the ETA contracting officer for
approval prior to the center awarding the sub-contracts. However, the contracting officer
did not review the sub-contracts to ensure that they were awarded in compliance with
applicable FAR requirements or that best value was obtained. Prior to approval of a
center-awarded sub-contract, the contracting officer reviews the documents provided
and signs off on a sub-contractor review checklist. Per FAR Subpart 44.2, under the
terms of cost reimbursable sub-contracts, the contractor must request the Contracting
Officer’s consent prior to entering into specified sub-contracts. Prior to approving center



                                                                  ETR Turner Sub-Contracting
                                                   11            Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



sub-contracts, the Contracting Officer is responsible for reviewing the request and
supporting data.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training require ETR
Turner to:

    1. Strengthen ETR Turner SOPs pertaining to procurement. Revisions need to
       include the required documentation and evaluator signatures and the specific
       steps to ensure sub-contracts and expenditures are advertised, evaluated,
       awarded, and costs supported as required by the FAR.

    2. Repay questioned costs as appropriate. This includes ETA making a final
       determination as to the amount of excess funds paid by the contractor to be
       recovered while recognizing the value of goods and services received.

    3. Provide training as needed to ensure procurement staff is proficient on FAR
       requirements.

    4. Develop procedures for providing and documenting supervisory oversight of
       center procurement.

Also, we recommend that the Assistant Secretary require the Regional Job Corps Office
and ETA contracting officer to:

    5. Strengthen procedures to ensure ETR Turner complies with the FAR when
       awarding sub-contracts and purchase orders and claiming related cost. This
       should include reviewing ETR Turner procurement activities for FAR compliance
       during on-site center assessments.

    6. Review all future ETR Turner sub-contracts for FAR compliance prior to 

       approval. 


We appreciate the cooperation and courtesies that ETA personnel and ETR Turner
officials extended to the Office of Inspector General during this audit. OIG personnel
who made major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit



                                                                 ETR Turner Sub-Contracting
                                                   12           Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





Exhibit 





                                                            ETR Turner Sub-Contracting
                                                   13      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK 





                                                            ETR Turner Sub-Contracting
                                                   14      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



                                                                                         Exhibit
Sub-Contracts and BPAs


Sub-Contracts Managed by ETR Turner
	
	


Sub-Contractor                                             Total Costs Questioned Costs
Clarence Calhoun, M.D.                                       $246,240          $246,240
Renaissance Centre                                           $178,200          $178,200
B.M.A. & Dawkins Behavioral Health                            $43,200           $43,200
TOTALS                                                                         $467,640

Clarence Calhoun, M.D.

See details on page 6.

Renaissance Centre

In 2009, ETR Turner awarded a one-year, $118,800, sub-contract to Renaissance
Centre to provide mental health assessment and counseling services to Job Corps
students. In 2010, the contract was extended for six months with additional costs of
$59,400. In awarding the initial sub-contract, ETR Turner requested bids on the
FedBizOpps website and received two bids. Renaissance Centre was awarded the sub-
contract because it was the lowest bidder.

We concluded that ETR Turner did not comply with FAR Subpart 44.202-2 when
awarding the sub-contract to Renaissance Centre. The center did not perform an
adequate cost or price analysis or responsibility checks to evaluate the bids. The sub-
contract was for providing mental health assessments and counseling services to Job
Corps students. As such, it was critical for the center to ensure its students received
adequate care by evaluating the bids based on the quality of services to be provided as
well as cost. Potential responsibility checks for mental health assessment and
counseling services include: experience providing services to a diverse student
population, ages 16-24; evidence of performance on similar type contracts; evidence of
a license to practice in the state and of current liability insurance coverage; and ability to
conduct comprehensive mental health assessments, develop and supervise treatment
plans, and provide individual and group therapy. Without the adequate bid solicitation
and evaluation, ETR Turner could not ensure the sub-contract award resulted in fair and
open competition, best value to the government, and foremost, adequate mental health
care for its students. As such, we questioned the cost for the initial contract and
extension, or $178,200 ($118,800 + $59,400).




                                                                        ETR Turner Sub-Contracting
                                                   15                  Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



Brandon S. Dawkins

In 2009, ETR Turner awarded a one-year, $28,800, to B.M.A. & Dawkins Behavioral
Health Services to provide drug assessment and interdiction services to Job Corps
students. In 2010, the contract was extended for six months with additional costs of
$14,400. In awarding the initial sub-contract, ETR Turner requested bids on the
FedBizOpps website and received two bids. BMA & Dawkins Behavioral Health
Services was awarded the sub-contract because it was the lowest bidder.

We concluded that ETR Turner did not comply with FAR Subpart 44.202-2 when
awarding the sub-contract to BMA & Dawkins Behavioral Health Services. The center
did not perform an adequate cost or price analysis or perform responsibility checks that
affected the contract award. The sub-contract was for providing drug assessment and
intervention services to Job Corps students. As such, it was critical for the center to
ensure its students received adequate assessment and training by evaluating the bids
based on the quality of services to be provided as well as cost. Potential responsibility
checks for these services include: experience providing services to a diverse student
population, ages 16-24; evidence of performance on similar type contracts; and ability to
provide assessment tools and effective intervention methods used in dealing with
students at risk of using drugs. Without adequate bid evaluation, ETR Turner could not
ensure the sub-contract award resulted in fair and open competition, best value to the
government, and foremost, adequate drug assessment and interdiction services for its
students. As such, we questioned the cost for the initial contract and extension, or
$43,200 ($28,800 + $14,400).

BPAs Managed by ETR

Staples

See details on page 7.

A – Z Solutions

        In 2010, Above the Standards obtained janitorial supplies under a BPA for ETR’s
        four centers, including ETR Turner. The consultant sent RFPs to selected
        janitorial supply vendors. The RFP requested prices for items listed on a pricing
        schedule. ETR Turner records indicate the consultant considered three bids,
        although only one bid included a completed pricing schedule. Above the
        Standards awarded a $450,000 BPA to A - Z Solutions even though it had not
        completed the pricing schedule. Furthermore, center records also indicated some
        of the vendors receiving RFPs did not understand the pricing schedules or had
        other technical problems and the consultant did not respond to the vendors’
        questions about the bid process. As of our May 2011 fieldwork at ETR Turner,
        the center had not claimed costs relating to the BPA awarded to A – Z Solutions
        because another contract had been in effect. This contract was less than
        $25,000 and was included in our testing of expenditures over $3,000.


                                                                 ETR Turner Sub-Contracting
                                                   16           Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





        ETR did not comply with applicable sections of the FAR when awarding the BPA
        to A – Z Solutions. In awarding the BPA, Above the Standards did not perform a
        cost or price analysis supporting the basis for the award (FAR Subparts 44.202.2
        (a)(5) and (a)(8)). There was no analysis performed supporting any review of the
        cost components. Without a proper cost or price analysis, there was no way of
        knowing whether the awarded cost was fair and reasonable (FAR Subpart
        31.201-3(a)). Additionally, ETR did not develop a means of rating the bids and
        performing responsibility checks on past performance of the bidders (FAR
        Subparts 44.202-2 (a) (7) and (11) and Subpart 9.104-1). Vendors, other than
        those selected by Above the Standards, did not have the opportunity to bid on
        the BPA. ETR management said that the BPA was not advertised on the
        FedBizOpps website because the consultant was not a Federal contractor and
        could not access the website. Additionally, A – Z Solutions was listed on the
        consultant’s website as one of its “Vendor Sourcing Partner.” The consultant’s
        ongoing relationship with Staples indicated that it was not a fair and open
        competition. Based on the FAR non-compliance, we question any costs claimed
        under the BPA since our May 2011 fieldwork at the center.




                                                                 ETR Turner Sub-Contracting
                                                   17           Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK
	
	




                                                            ETR Turner Sub-Contracting
                                                   18      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





Appendices 





                                                            ETR Turner Sub-Contracting
                                                   19      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK 





                                                            ETR Turner Sub-Contracting
                                                   20      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



                                                                              Appendix A
Background

Job Corps is authorized by Title I-C of WIA of 1998 and is administered by ETA’s Office
of Job Corps under the leadership of the National Director, who is supported by a field
network of six Regional Offices of Job Corps. The Job Corps program’s budget for
FY 2010 totaled about $1.7 billion.

The purpose of Job Corps is to assist disadvantaged youth ages 16 through 24 who
need and can benefit from a comprehensive program, operated primarily in the
residential setting of a Job Corps Center (JCC), to become more responsible,
employable, and productive citizens by developing employability skills. Its training
activities and living facilities are housed within 125 centers throughout the country.

ETR Turner, is located in Albany, Georgia, and consists of several buildings. One of
these buildings houses the center administration and training sites. Other buildings
house the student dormitory, cafeteria, recreation, the career preparation program,
academic training classes, outreach and admissions, and the career transition
department.

ETR was awarded contract number DOL-J04-UA-00007 to operate ETR Turner
effective July 1, 2005. The contract is for operations of ETR Turner for the base two
year period July 1, 2005 through June 30, 2007, at an estimated cost of $40 million. In
addition, ETR was awarded the 3 option years, for the period July 1, 2007 through June
30, 2010, at a cost of approximately $21 million per year. The center received two
contract extensions, one for five months and one for one month, through December 31,
2010, in the amount of $2,790,464 and $1,837,900, respectively. ETR Turner has an
authorized On Board Strength of 1,030 students.




                                                                  ETR Turner Sub-Contracting
                                                   21            Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK
	
	




                                                            ETR Turner Sub-Contracting
                                                   22      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



                                                                            Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

  Did ETR Turner award sub-contracts and claim costs in accordance with the FAR?

Scope

The audit covered sub-contracts managed and expenditures incurred by ETR Turner
from January 1, 2010, to December 31, 2010. We reviewed all three sub-contracts,
totaling $467,640, managed by ETR Turner during this period. In addition, we reviewed
two corporate sub-contracts, totaling $900,000, awarded by ETR that covered the four
centers operated by ETR. We also reviewed a statistical sample of 71 expenditures
over $3,000, totaling $759,189, from 368 expenditures totaling $2.9 million. These
expenditures were generally initiated by purchase orders and were separate items from
the five sub-contracts we reviewed. ETR’s contract to operate the ETR Turner was not
included in our review because it was awarded by ETA. In addition, no ETR Turner sub-
contracts were awarded by ETA.

We performed field work at the Turner JCC located in Albany, Ga., where we reviewed
files, supporting documents, and performed interviews. In addition, we interviewed the
Job Corps Regional Director in Atlanta, Ga., and ETA contracting officers located in
Boston, Mass., and Houston, Texas.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.

Methodology

To accomplish the audit objective, we obtained an understanding of FAR, and Job
Corps’ and ETR Turner’s procurement regulations and policies. We conducted
interviews with ETR Turner officials responsible for procurement and invoice payment.

To assess ETR Turner’s internal controls over procurement, we interviewed key center
staff; reviewed applicable Job Corps requirements, including Job Corps’ PRH, FAR,


                                                                ETR Turner Sub-Contracting
                                                   23          Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



contract provisions (Part 52, Solicitation Provisions and Contract Clauses and Part 44,
Subcontracting Policies and Procedures), and ETR Turner’s SOPs; analyzed the most
recent Job Corps Regional Office Center Assessment and ETR’s most recent corporate
center assessment and performed a walkthrough of the procurement process.

We identified and evaluated the internal controls of ETR Turner, ETR, and Job Corps
over the monitoring and approval of sub-contracts as of May 2011.

Specifically, we obtained all supporting documents pertaining to the announcing,
evaluating, awarding, and payment of invoices of the three sub-contracts and 71
expenditures. We tested files for completeness for the three sub-contracts by
conducting a meeting with the ETR Turner contracting officer and reviewing the contract
files in her office. We tested for completeness of the check register by verifying check
dates that were issued during our audit period, by verifying all checks were in sequential
order, and by verifying missing checks were voided by ETR Turner.

We tested approximately 50 percent of the invoices for the three sub-contracts and
because we found no errors relative to FAR Subpart 32.905, we performed no further
testing. For the two corporate sub-contracts, we tested approximately 50 percent of one
contractor’s invoices and none for the other contractor because no expenses were
incurred.

For sub-contracts issued by ETR Turner, we obtained the contract file and all supporting
documentation provided by ETR Turner. We reviewed all three sub-contracts, totaling
$467,640, managed by ETR Turner during January 1, 2010, to December 31, 2010.
We tested each of the sub-contracts and expenditures for compliance with the FAR,
including awarding sub-contracts based on fair and open competition, cost or price
analysis, and evaluation of past performance (FAR Subpart 44.202-2). In addition, we
reviewed two corporate sub-contracts, totaling $900,000, awarded by ETR that covered
the four centers operated by ETR. We also reviewed a statistical sample of 71
expenditures over $3,000, totaling $759,189, from 368 expenditures totaling $2.9
million. These expenditures were generally initiated by purchase orders and were
separate items from the five sub-contracts we reviewed. ETR’s contract to operate ETR
Turner was not included in our review because it was awarded by ETA. In addition, no
ETR Turner sub-contracts were awarded by ETA.

For purchase orders issued by ETR Turner, we obtained the check register for the audit
period. From the check register we removed checks related to payroll, checks under
$3,000, contract invoices for the three sub-contracts, and checks for utilities. This left
368 expenditures, totaling $2.9 million. We used statistical sampling to select a sample
of 71 expenditures, totaling $759,189.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and


                                                                  ETR Turner Sub-Contracting
                                                   24            Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



placed in operation. This included reviewing ETR Turner’s policies and procedures
related to procurement. We confirmed our understanding of these controls and
procedures through interviews and documentation review and analysis. We evaluated
internal controls used by ETR Turner for reasonable assurance that the awarding of
sub-contracts and payment of invoices were done according to Federal and Job Corps
requirements. Our consideration of ETR Turner’s internal controls for awarding of sub-
contracts and payment of invoices would not necessarily disclose all matters that might
be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

To achieve the assignment’s objective we relied on the computer-processed data
contained in ETR Turner’s check register. We assessed the reliability of the data by
(1) performing various testing of required data elements, and (2) interviewing ETR
Turner financial officials knowledgeable about the data. Based on these tests and
assessments, we concluded the data was sufficiently reliable to use in meeting the audit
objective.

Criteria

We used the following criteria to perform this audit:

    •   Federal Acquisition Regulations,
    •   Job Corps Policy and Requirements Handbook, and
    •   ETR Turner Standard Operating Procedures.




                                                                ETR Turner Sub-Contracting
                                                   25          Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK
	
	




                                                            ETR Turner Sub-Contracting
                                                   26      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



                                                                              Appendix C 

Acronyms



BPA                     Blanket Purchase Agreement

DOL                     U.S. Department of Labor

ETA                     Employment and Training Administration

ETR                     Education and Training Resources

ETR Turner              Turner Job Corps Center Operated by ETR

FAR                     Federal Acquisition Regulations

GSA                     General Service Administration

OIG                     Office of Inspector General

PO                      Purchase Orders

PRH                     Policy and Requirements Handbook

SOP                     Standard Operating Procedures

WIA                     Workforce Investment Act




                                                                  ETR Turner Sub-Contracting
                                                   27            Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK
	
	




                                                            ETR Turner Sub-Contracting
                                                   28      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



                                                                                                                  Appendix D 

ETA Response to Draft Report 




       U,S. Department of Labor                      Assistant Secretary for
                                                     Employment and Training
                                                     WashingtOll, D.C. 20210
                                                                                                            ,
                                                                                                            ;'(
                                                                                                              "'1
                                                                                                                1"")";
                                                                                                                            .
                SEP 29 2011
                                                                                                            (.
                                                                                                                '. .." .'
                                                                                                                 '."
                                                                                                                        .'




            MEMORANDUM FOR:                ELLIOT P. LEWIS
                                           Assistant Inspector General for Audit

            FROM:                          JANE OATES
                                           Assistant Secretary

            SUBJECT:                       OIG Draft Report No. 26·1 1·003·03·370,
                                           " Education and Training Resources Did Not Ensure Besl Value in
                                           Awarding Sub-Contracts a/the Turner Job Corps Center "

            This memorandum responds to the subject draft audit report, dated September 9, 20 11, Draft
            OIG Audit Report No. 26-11-003-03-370, "Educatian and Training Resources Did Not Ensure
            Best Value In Awarding Sub-Contracts. " We appreciate the opportunity to provide input to this
            draft audit report and reiterate that Job Corps center operators are not subject to all aspects of the
            Federal Acquisition Regulation (FAR), but are accountable to the 13 considerations identified in
            FAR Part 44.202-2, the subcontracting consent limitations identified in FAR 44.203, and an
            evaluation of contractor' s purchasing system under FAR 44.303.

            Our responses to the draft audit report's recomme ndations follow:

            OIG R«ommendation I: Strengthen center SOPs pertaining to procurement. Revisions need
            to include the required documentation and evaluator signatures and the specific steps to ensure
            all sub-contracts and expenditures between $3,000 and $25,000 are advertised, evaluated,
            awarded, and costs supported as required by the FAR.

            Response: Management accepts this recommendation in part.

            Education and Training Resources' (ETR) procurement polices minimally must meet the
            requirements of FAR Part 44.303 and FAR Part 52.244-5. ETR's Procurement SOPs should be
            based on sound procurement principles such as ensuring the solicitation is clear, advertised,
            evaluated in a fair manner, and awarded at a fair and reasonable price. The ETA Office of
            Contracts Management (OCM) recently completed a Contractor Purchasing System Review of
            ETR corporate headq uarters and visited the Hartford Job Corps Center (lCC). The draft report
            has been submitted to the cognizant Contracting Officer, which includes reco mmendations to
            improve ETR's procurement SOPs. A copy of the final report is available upon request. It is
            importanlto note that currently ETR does not have an approved purchasing system.

            We consider this recommendation resolved.




                                                                                             ETR Turner Sub-Contracting
                                                             29                             Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                                                             2



            OIG Recommendation 2: Repay questioned costs totaling S I ,029,4 15. This includes ETA
            making a final detennination as to the amount of excess funds paid by the contractor to be
            recovered while recognizing the value of goods and services received.

            Response: Management accepts this recommendation in part.

            The DIG computed questioned cost based upon the fo llowing findings. Our remarks are
            included with each finding below:

                    Table 1: Instances or FAR non-compliance rcsultiDe, in questioned costs
                                                      Sub-contracts over             Expenditures over
                                    FAR               $25,000 f amount of           $3,000 I amount of
                             Non-compliance
                                                       questioned costs              questioned costs
                      (a) Sub-contract award
                                                          3 of 3 (100%)
                      evaluation factors nol                                           Not applicable
                                                            $467,640
                      develoced and employed
                      (b) Corporate BPA award
                                                          2 of2 (100%)
                      evaluation factors nol                                           Nol Applicable
                                                             $10,803
                      developed and emploved
                      (c) Tumer BPA award
                                                                                   Sample: 26 of 7 1 (36%)
                      evaluation factors not             Not Applicable
                                                                                          $324 ,342
                      developed and employed
                      (d) Improper splitting of
                                                                                   Sample: 10 of 71 (14%)
                      invoices below micro               Not Applicable
                                                                                           $55,160
                      threshold of $3,000
                      (e) Inadequate sole source                                  Sample: 4 of 71 (0.06%)
                                                         Not Applicable
                      iustification                                                        $61,800
                      (f) Circumvented Competitive                                Sample: 4 of 71 (0.06%)
                                                         Not Applicable
                                    BiddinQ                                               $109,669
                                                                 5 of 5 (100%)            Sample: 44 of71 (62%)
                                 Total. ..... $1,029,415
                                                                   $478,443                     $550,972


                  (a) O IG needs to clarify specifically what is meant by "award not based on proper
                      evaluation" and the FAR citations annotated. The FAR requires that the contractor
                      have a sound basis for awarding a contract, but not lhat it publish an RFP inclusive of
                      evaluation factors as required for Federal contracting officials.
                  (b) Set! response a.
                  (c) Set! response a.
                  (d) We agree with the OIG. ETR appears to have circu mvented competitive bidding
                      requirements as required in Far Part 52.244-5. We will instruct the contractor to
                      provide supponable and verifiable infonnation as to increased cost paid by the
                      contractor as a result of splitting requirements. We will initiate proceedings to reclaim
                      the excess funds paid by the contractor while recognizing the value of the goods and




                                                                                           ETR Turner Sub-Contracting
                                                            30                            Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                                                            J



                      services received. We anticipate that the cost recovery will be less than the $55,160
                      questioned by the OIG.
                  (e) We agree with the DIG, ETR did not document the justification for the sole source
                      awards. We will initiate proceedings to reclaim the excess funds paid by the contractor
                      while recognizing the value of the goods and services received. We anticipate that the
                      cost recovery will be less than the $61,800 questioned by the OIG.
                  (f) We agree in part with the 010, of the 4 actions cited as circumventing competitive
                      bidding, the purchase of mattresses comparing the prices of two GSA schedule bidders
                      to the pricing of a non GSA schedule bidder does nol appear to circumvent the
                     competitive bidding process. While ETR may purchase from the GSA schedule they
                     are not bound to the same restrictions as Federal Contracting officials and are not
                     compelled to only compete within the schedule. We will initiate proceedings to
                     reclaim the excess funds claimed by the contractor. We estimate that the cost recovery
                     will be less than the $109,669 in expenditures over $3,000.

            We consider this recommendation resolved.

            OIG Recommendation 3: Provide training as needed to ensure procurement staff is proficient
            on FAR requirements.

            Response: Management accepts this recommendation.

            All Job Corps center operators are required by the Job Corps Policy and Requirement Handbook
            (PRH) to provide a minimum of 5 hours of professional development training, appropriate 10 the
            work performed, to all center staff. OCM will ensure ETR provides appropriate procurement
            training to staff responsible for purchasing center items and awarding center support sub­
            contracts.

            We consider this recommendation resolved.

            OIG Recommendation 4: Develop procedures for providing and documenting supervisory
            oversight of center procurement.

            Response: Management accepts this recommendation in part.

            OCM will direct ETR to update SOPs to provide for regulatory and statutory oversight, rather
            than supervisory oversight.

            We consider this recommendation resolved.
            OIG Recommendation 5: ETA Strengthen procedures to ensure Turner lCC complies with the
            FAR when awarding sutxontracts and purchase orders and claiming related cost. This shoulrl
            include reviewing Turner JCC procurement activities for FAR compliance during on-site centcr
            assessments.

            Response: Management accepts this recommendation in part.




                                                                                          ETR Turner Sub-Contracting
                                                           31                            Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                                                             4



            oeM will ensure ETR. not Turner lCe, complies with regulatory requirements.
            OeM conducted a Contractor Purchasing System Review of ETR corporate headquarters and the
            Hartford Job Corps Center in August 2011 . The rev iew identified several areas needing
            improvement which requires ErR to submit a corrective action plan and undergo a fe-inspection
            prior to the Contracting Officer (CO) approving ETR's purchasing system. As ErR does not
            have an approved purchasing system, the majority of their sub-contract activity must receive CO
            approval prior to entering into contractual agreements on behalf of the Job Corps center
            operated. Further, OeM will work with Ole to provide loo[s to COTRs/Project Managers to
            assist in the monitoring of the purchasing practices ofETR.

            We consider this recommendation resolved.

            OIG Recommendation 6 : Review all future Turner lee sub-contracts for FAR compliance
            prior to approval.

            Response: Management accepts this recommendation


            ETR., operator ofTumer JCe, does not have an approved purchasing systcm; as such, the
            majori ty ofETR subcontracts must receive   eo    approval prior to the contract's execution. OeM
            wi ll provide additional tools to regional COs to ensure a thorough review of potential subcontract
            agreements ensuring: proper market research, advenisement, competition, basis of award, and
            cost/price analysis or comparison has been completed prior to granting approval to the
            contractor.

            We consider this recommendation resolved.

            Based upon the aforementioned responses, we anticipate the audit report's recommendations wi ll
            be reso lved and can be closed upon completion of the corrcctive action. If you have questions
            concerning this document, please contact Linda K. Heanley, ETA ' s Head of the Contrac ting
            Activity, in the Office of Contracts Managemcnt at (202 ) 693-3404.


            Cc:    T. Michael Kerr, ASAM
                   Ed Hugler, OASAM
                   Edna Primrose, Job Corps
                   Darlene Lucas, ETA Aud it Liaison




                                                                                          ETR Turner Sub-Contracting
                                                             32                          Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 



                                                                                                                               Appendix E 

ETR Response to Draft Report 





             Education & Training Resources

            September 22, 201 1

            Mr. Elliot P. Lewis
            Assistant Inspector General for Audit
            U.S. Department of Labor
            Office of Inspector General
            200 Constitution Avenue, N.W., Suite S-5512
            Washington, DC 20210

            RE: ETR Response to Draft Audit Report
                Draft Report No. 26-11-4)03-03-370
                Perfo rmance Audit ofETR Sub-Contracting at tbe Turner Job Corps Centers

            Dear Mr. Lewis:

            Education & Training Resources (ETR) respectfully replies as follows to the September 9, 2011
            Draft Audit Report by the Department of Labor (DOL) Office of Inspector General (OIG)
            regarding ETR's government contract with the DOL to operate the Turner Job Corps Center:

            ETR strongly disagrees with the DIG's draft finding that "ETR Turner did not comply with the
            FAR (Federal Acquisition Regulation] when awarding subcontracts and purehase orders," for th e
            fundamental reason that the FAR does not contain any of the al leged "requirements" on which
            the DIG bases its ana lys is. Ever since this audit began last spring, the DIG has insisted that
            ETR, as a government contractor awarding subcontracts, is subjcclto the same procedural
            requirements that the FAR imposes on the gove rnment itself when it awards prime contracts 10
            its own suppliers. In short, this DIG insistence is not consistent with the law.

            Repeatedly since last spring, ETR has respect fu lly challenged the DIG to support the underlying
            premise of this audit by directly identifying where in the FAR, or in ETR's contract with DOL,
            any of these alleged "requirements" can be found; and, thus, applied to the ETRffumer as a test
            of contractual compliance. In response, the DIG has still not identified a single app licable
            " requirement." For a long time, in discussions and in draft write-ups shared with ETR, the DIG
            nei ther cited nor quoted any specific FAR provisions. Subsequently, after repeated urging by
            ETR and DOL, the OIG provided a "discussion draft" (A ugust 22, 2011) which cited, but
            declined 10 quote, at least seven (7) FAR provisions that supposedly appl ied to the ETRfTurncr
            contract. In response (A ugust 29, 20 11 ), ETR was forced to prepare a detailed analysis that
            showed, by direct verbatim full-text quotes, that each and every one of the seven supposedly
            app licable FARs cited by the O[G pertained on ils/ace only 10 contract award dec isions by the
            government contracting officer al the prime contract level, l!!:ill...m!! to subcontract award
            decisions by the prime contractor. Nor was a single one of thern contractually flowed-down to
            ETR in ETR's prime contract for the management and operation of the Turner Job Corps
            Center.




                    IThil TeJlXlnSe is intrnded to be ..nod n d publi,hrd in it. r nti...,ty, inoJuding   th~   Am!t'ndi l.)




                                                                                                                 ETR Turner Sub-Contracting
                                                                     33                                         Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audi t Report
            September 22, 2011
            Page 2 of 18 Pages


            I.    On Their Face, the OIG's New Citations from FAR Part 44 Are Simply
            "Considerations" for the Contracting Officer to Review, Not Req uiremen ts for th e
            Contractor as Alleged. The OIG Still Has Identified No "Requirements" to Support Its
            Audit Findings.

            [n this newly revised Draft Audit Report, the OIG has now responded, com pletely withdrawing
            its previous reliance upon the seven (7) inapplicable FARs, and replacing them with citations
            (but again, no quotation) of two different and previously unmentioned FAR provisions, namely
            FAR 44.202-2(0)(7) and (0)(11), as the legal basis for its findings of "noncompliance." See
            Draft Audit Report at p. 5. Therefore, again in this response, ETR bears the burden and expense
            of having to explain the proper interpretation and application of these newly named and applied
            FAR citations: that they too do not impose any "requirements" on ETR, the contractor. Nor are
            they contractually flowed-down to ETR, any more than previously cited FARs were,
            Accordingly. after consultation with our counsel, we are providing a brief analysis and
            discussion of these newly-cited FAR sections, their background, and their inapplicability to the
            audited transactions here in our fo llowing response:

             FAR Subpart 44.2 pertains to the cireumstances in which a government prime contractor must
            "notify" the government's contracting officer of, and obtain the contracting officer's "consent"
            for, the prime contractor's award of ccrtain types of subcontracts under certain conditions. This
            "consent" process, when applicable at all, is very generally defined. Thus, FAR Subpart 44.2
            nowhere states comprehensive ly or specifically what is necessary and sufficient for a subcontract
            to obtain the government's consent. [t contains on ly a very short lisl of c ircumstances in which
            consent shall not be granted, none of which are present here. FAR 44.203(b). Otherwise it states
            in general terms that the contracting officer "shall ensure that the proposed subcontract is
            appropriate for the risks involved and consistent with current policy and sound business
            judgment." FAR 44.202-1(b). Government consent to subcontracts, when required, is obviously
            intended to be a flexible, case-by-case process in which the contracting officer ' s diseretion is
            respected and recognized as essential. The section cited now by the 01G, FAR 44.202-2(a),
            therefore, begins as fo llows: "The contracting officer responsible for consent must, at a
            mi nimum, review the request and supporting data and consider tbe following: ... ." The FAR
            goes on to list thirteen ( 13) qucstions among those to be "considered," only two of which are
            cited by the OIG (Draft Audit, p. 5) as the basis of its specific findings, namel y: (aX7) ("Does
            the contractor have a sound basis for selecting and delennining the responsibil ity of the
            particular subcontractor?") and (a)(II) C'Has the contractor adequately and reasonably translated
            prime contract technical requirements into subcontract requirements?'').

            Nowhere does the FAR say that consent is to bc denied, or granted, depending on the answers to
            any, some, or all of these questions, nor does it even say what the "right" answers (if any) would
            be in the case of a give n procurement ... presumably because which "considerations" are most
            important, or even relevant at all, or if so, to what extent or weight, wilt depend on the particular
            subcontract under review, so there is no one "right" answe r, or set of answers that fits all cases.
            Nevertheless, it is on the basis of these generalities, which the governmenl contracting officer is
            simply to "consider," that the OIG now seeks to impose on the controctor various speci fic

                    IThis R.OOnH i, inlt ndrd 10 be rei d Ind p ubl i,hHl in its ~nlimy, incillding t he A D~ndil .1




                                                                                                         ETR Turner Sub-Contracting
                                                                    34                                  Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Repon
            September 22, 2011
            Page 3 of 18 Pages

            "requ.iremell(S" alleged on pages 6 - 8 of the Draft: a supposed requirement to state evaluation
            "factors and " significant subfactors," a supposed requirement for a "means of rating [vendor]
            bids and evaluating the past performance of the bidders," a supposedly required "justification for
            sole-source procurement," and so on. All of these are familiar requircments in certain instances
            when the government awards a prime contract, or even for a subcontract when these top-level
            requirements have been flowcd-d.own to lower levels (as they are not here) ... but it is nOllegally
            supponed to contend that they are imposed on a contractor's subcontract awards simply on the
            basis of a few generally-phrased questions concerning what a government contracting officer
            must "consider" when deciding whether to consent.

            The very fact that it has taken until the eleventh hour (this Draft Report, at the end of a six­
            month-long audit process) for the O IG even to find these allegedly-applicable FAR sections, and
            then to transform their generally-phrased questions for contracting officer "consideration" into
            specifically-phrased contractor "requirements," confirms that it cannot be right, or appropriate, to
            find and demand that the contractor should somehow have known all about the detailed
            "requirements" allegcdly embedded deeply within the generalities ofF AR Part 44, and
            "complicd" from Day One of its contract performance ... and then to "question," and extrapolate
            further, literally millions of dollan of costs based on alleged " requirements" so inscrutable that
            the auditors themselves had not discovered them until just a few weeks ago.


            II.   Even Wben Properly Understood As Considerations for Contracting Officer
            "Consent," the FAR Pa rt 44 Provisions Cited by tbe OIG Do Not Apply to Most of the
            Audited Transactions.

            A further but basic point about "consent" under FAR 44.2: even if general "considerations"
            regarding consent to subcontracts could somehow provide the basis for inferring the alleged
            specific "requirements," the entire " consent" process does not even apply to most of these
            audited and questioned transactions in the first place.

            In the case of a contractor that does not have an "approved purchasing system" (ETR' s current
            status), government consent to subcontracts is only required for the following types of
            subcontracts: cost-reimbursement, time-and-materials, labor-hour, or fixed-price that exceeds the
            "simplified acquisition threshold" (Sl SO,OOO) or S% of the total estimated cost of the prime
            contract (approximately $2 million). See FAR 44.201-I(b); FAR S2.244-2(d).

            Most of the subcontracts (particularly the numerous purchase orders) in these audit findings do
            not fall into any of these categories: they are typically too small in do llar amount andlor neither
            cost-plus, T&M, nor labor-hour. Hence, FAR 44.202-2 is not applicable to them, even if the
            "considerations" for " consent" contained the alleged " requirements."

            Even more fundamentally, a "subcontract" must be a "contract" in the first place. See FAR
            44.101 , definition of " subcontract." However, many of the audit findings here involve "BPAs"
            (blanket purchase agreements), which are not contracts themselves: they are just agreements that
            govern th e terms of fUlure potential contracts (e.g., task orders or purchase orders that may be

                    ([hi. response is intendes! to   be Bad .nd pubtished ill it! '"tietty, includine the Appendil.)




                                                                                                          ETR Turner Sub-Contracting
                                                                     35                                  Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 20 11
            Page 4 of 18 Pages

            iss ued in accordance with the BPA). See FAR 16.703«a)(3) ("A basic ordering agreement is not
            a contract."); 16.702(aX2) ("A basic agreement is not a contract."); Crewzers Fire Crew
            TrOllSport. [IIC. v. United Slates, US Court of Federal Claims No. 10-8l 9C, January 28, 20 11 at
            p. 13 (0< It is well established that BPAs are not contracts."), citing numero us other cases,
            indudingModern Sys. Tech. Corp. v. United Sloles, 24, C1. Ct.360, 362-63 (1991), offd and
            adopled, 979 F.2d 200, 202, 204 (Fed. Cir \992) ("blanket pricing agreements" "do not creale
            binding ri ghts or obligations because they contain contract clauses that apply to future contracts
            between the parties"); and Prod. Packaging, AS BCA No. 53662, 03-2 BCA 32388 (AS BCA
            2003) ("[AJ BPA is nothing more than an agreement oftenns by which the Government could
            purchase.'1. See also, FAR 2. \0 I (definition of ' co ntract": "mutually binding legal relationship
            obligating the seller to furnish the supplies or services ... and the buye r to pay for them.").
            Hence, even if the FAR Part 44.2 "consent" "considerations" co uld be the basis for specific
            requirements on a contractor, they would not apply to any oflh e numerous BPAs audited here
            and questioned in cost, because BPAs are not even "contracts" to begin with.

            Only a handfu l of the subcontracts audited here were subject to FAR Part 44 "consent" ... and
            the files confinn that oJ! of these professional mcdical subcontrncts (specifically, Clarence
            Calhoun, Renaissance Center, and Brandon Dawkins) were du ly and expressly consented to by
            the DOL contracting officer, and wi th multiple sign-offs from additional DOL personnel. There
            is no indication that the co ntracting officer did not "consider" all relevant factors in this process.

            In the Appendix attached to this letter, ETR responds in more d etail regarding the specific
            transactions identified in the Draft Audit Report. To lhe extent that purely factual disagreements
            exist and given our three (3) previous draft responses throughout this audit process, we have
            refra ined from a longer response with additional exhibits, but we respectfully invite the OIG
            aud itors to re-visit our procurement files to confinn our statement offacts in this response. We
            conclude these general opening remarks with the fo llowing observation:


            UJ.     Concludipg Observations.

            The OIG obviously believes that DOL Job Corps contractors arc or should be required to award
            subcontracts in accordance with the same detailed FAR require ments that the govemment itself
            must observe when awardin g prime contracts. Whether or not that would be a good idea, Job
            Corps contractors are not currently subject to such requirements, neither pursuant to the FAR,
            nor by contractual flow-downs . Therefore, if the 010 has a continued co ncem with any party on
            this matter, it should not be with ETR, the contractor, which has complied wi th its Tumer
            contract and the FAR as thcy are actually wri tten.

            If anyth ing, we wou ld expect the OIG to recommend to DOL that its contracts contain express
            provisions for different subcontrncting procedures, and that the DOL or the FAR Council adopt
            various ame ndments. We question whether adopting such recommendations would serve Job
            Corps or DOL interest, or the public interest, as they would substantially augment the
            contractors' allowable costs of compliance, add ing to the operational costs of all 125 Job Corps
            Centers ... and for no good reason, as there is no ev idence in this audit even hinting that the

                    m it re$pon$e j, inltndtd 10 bt nld .nd publi$htd in ig <ntino:, indud ' ng the ApDtndis,)




                                                                                                    ETR Turner Sub-Contracting
                                                                 36                                Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 2011
            Page 5 of 18 Pages

            DOL di d not receive excellent value, and fair prices, for the subcontracted services furnished by
            ETR in their management and operation of the Turner Job Corps Center. I.e. , no case
            whatsoever has been made that Job Corps subcontracting is in any sense "broken" such that so
            expensive a "fix " wou ld be advisable to DOL or Congress. But, it is absol utely certain that it is
            unfair and inappropriate to find that ETR, the con/rac/ar, should be punished for what are really
            OIG's own disagreement with the FAR and its own client's policies and practices.

            In closing, the OIG auditors have been courteous and respectful in thcir discussions with ETR
            and the Turner Center statT, and we, in tum, respect their efforts to perform their mission. In
            truth, however, we are all the more perplexed and disappointed by their insistence that,
            essentially, because the writers of the FAR and DOL have not imposed the requirements that the
            OIG wou ld prefer, then it is the contractor, who complies with the FAR and the contract as they
            actually are, who should be made to pay the price for this disagreement though the audit process,
            by means of alleged "requirements" that are not applicable, even after all of the different theories
            and citations have been applied. This Perfonnance Audit ofETR sub-ronuacting at the Turner
            Job Corps Center is not fair or reasonable, and is based on a fundamentally flawed audit scope of
            work. We request that each of the Draft Audit findings adverse to ETR be withdrawn.


            Respectfully,


            'L';l.f-
            Brian Fox
            President/CEO


            AttachmentCs)
            -Appendix



            cc:    Ray Annada, OIG Audit Director
                   Michael Elliott, OIG Audit Manager
                   Linda Heartley, DOUETNOCM Administrator
                   Edna Primrose, lob Corps National Director
                   Darlene Lucas, DOUET A Audit Liaison
                   Dennis Johnson, Job Corps Audit Liaison
                   Carol Andry, DOUETNOCM, Turner Contracting Officer
                   Chris Herro, Job Corps Regional Director-Atlanta




                    Obi:! us""n!,;' inltnd...t '2 bt rud and publisbrd in jlS rntiRly. including the ApD1ndhi.l




                                                                                                    ETR Turner Sub-Contracting
                                                                 37                                Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 201 1
            Page 6 of 18 Pages

                                                          APPEN DIX

            S ubcontracts A bove $25,000 when! {A llegedj FA R Noncompliance Resulted in Questioned
            Costs (Draft A udit Report, pages, 6, 15, und 16).

            Suhcontructs Manuged h ~ ETIVTurner:

            Clurence Culh oun. M.D. (Draft Audit Report, p. 6): The OIG alleges that the award ofthis
            subcontract for medical services for Job Corps students was not in compliance with FAR,
            specifically FAR 44.202-2(a)(7) and (II), according to the OIG's chart on page 5 of its Draft.
            The reasons given for the alleged noncompliance are failure to "perfonn a cost or price analysis
            or develop and clearly state in the solicitation the factors and significant subfactors that affected
            con tract award and their relative impprtance," and also failure to ~develop a mcans of rating the
            bids and evaluating the past perfonnance of the bidders." OIG's finding is in error because:

            •   The cited FAR sections on thei r face do not require the contractor to perform cost analysis or
                price analysis, state factors or subfactors, or dcvelop a "means of rating." Thcy do not
                require the contractor to do anyth ing. They simply require the government contracting
                officer (not the contractor), in a procurement where government "consent" to a subcontract is
                requ ired, to "consider" various questions framed in general tenos, such as whether the
                contractor has a "sound basis" (undefined) for the subcontract award «a)(7» and whether the
                contractor has '"reasonably translated" prime co ntract technical requirements to the
                subcontract «aXIl   ».   The cited FAR sections do not make "consent" dependent on specific
                answers to the various questions for "consideration."

            •   The alleged requirements for the contractor to perfonn cost analysis and price analysis, list
                factors and subfactors, and develop a "means of rating" do not exist anywhere else in the
                FAR, or in ETR's contract with DOL. The OIG has never been able to cite or quote any of
                these nonexistent FAR "requirements," despite our repeated requests throughout this audit.

            •   The DOL contracting officer, in fact, reviewed the file for the Calhoun subcontract and
                foonall y consented in writing to its award. The conse nt was also signed ofT by two other
                responsible DOL personnel. There is no evidence thai any of these personnel did not
                carefully rcview and consider all required factors.

            •   In fact, ETR's selection of Dr. Calhoun was reasonab le, properly documented, and providcd
                best value to the Job Corps. ETR advertised the subcontract procurement. It received nine
                (9) responses, of which three (3) were qua lified 10 perfoon the requ ired scope of work. Dr.
                Calhoun was Ihe lowest-priced qua lified bid. ETR's estimated budget for th is position
                (shared wi th the lob Corps during the pricing of the prime contract) was $1 01.30/hour. This
                estimate was documented prior to the subcontract solicitation. The subcontract was awarded
                to Or. Calhoun at 95.00Ihour, substantially under the ETRfTurner's contracted budget
                amount, confirmin g the reasonableness of th e price.




                    mis ",spo n", is inl,ndrd 10 be ru d a nd   p u brs b~d   in ils   ~nt i rny,   includ in e Ih' Ap Pfpdi •. 1




                                                                                                                    ETR Turner Sub-Contracting
                                                                    38                                             Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 20 II
            Page 7 of 18 Pages

            •   The O[G questions the entire amount ($246,240.00) of the subcontract and its extension
                based on these alleged procedural irregularities in the award, However, the Draft Audit
                Report also cOlTectly observes that DOUETA's "final determination" of questioned costs
                must "recognize the value of goods and services received," Draft at page 2, footnote I. J.e.,
                even jfthere were a procedural noncompliance, which there is not, it would be improper to
                reward the govcrnment with a windfall offree subcontracted goods and services when there
                is no findi ng that Dr. Calhoun fa iled to perfonn any of the s ubcontracted work-scope.



            Renaissance Centre (Draft Audit Report, page IS): The DIG alleges that the award of this
            subcontract fo r mental health services for Job Corps students was nOI in compliance with the
            FAR, specifically FAR 44.202-2(a)(7) and (II), according to the chart on page S of the Draft.
            The reasons given for the alleged noncomp liance are failure to "perfonn a cost or price analys is
            or develop and clearly state in the solicitation the factors and significant subfactors that affected
            contract award and their relative im portance," and also failure to " develop a means of rating the
            bids and evaluating the past perfonnance of the bidders." OIG's findi ng is also in error because:

            •   The cited FAR sections on thei r face do not require the contractor to perfonn cost analysis or
                price analysis, state factors or subfactors, or develop a "means of rating." They do not
                require the contractor to do anything. They simply require the government contracting
                officer (not the contractor), in a procurement where government "consent" to a subcontract is
                required. to "consider" various questions framed in general tenns, such as whether the
                contractor has a "sound basis" (undefined) for the subcontract award «aX7» and whether the
                contractor has "reasonably translated" prime contract technical requirements 10 the
                subcontract «aXil ». The ciled FAR sections do not make "consent" dependent on specific
                answers to the various questions for "considerati on."

            •   The alleged requirements for the contractor to perfonn cost analysis and price analysis, list
                factors and subfactors, and develop a ''means of rati ng" do not exist anywhere else in the
                FAR, or in ETR's contract with DOL. The DIG has never been able to cite or quote any of
                these nonexistent FAR "requirements," despite our repeated requests throughout this aud it.

            •   The DOL contracting officer, in fact, reviewed the file for the Renaissance Center
                subcontract and fonna ll y consented in wr iting to its award. The consent was also signed off
                by two other responsible government personnel. There is no evidence that any of these
                personnel did not carefully review and consider all required factors.

            •   In fact, ETR's selecti on of Renaissance Centre was reasonable, properly documented, and
                provided best value 10 the lob Corps. ETR advertised the subcontract procurement. It
                received ten (10) bids, of whi ch two (2) were qualified to perfonn the required scope of
                work. Renaissance Centre was the lowest priced qualified bidder. ETRfTumer's estimated
                budget for this requirement (DOL approved during the pricing of the prime contract) was
                $45.69Ihour. This estimate was documented prior to the subcontract solicitation. The
                subcontract was awarded to Renaissance Centre at S45.00lhour, eonfi nning the
                reasonab leness of the price.

                    ill;' u§oon se is intended 10 be [tid I nd published in its en li rely. including the Apptndi~.)




                                                                                                         ETR Turner Sub-Contracting
                                                                    39                                  Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR ResJXlnse to Draft Audit ReJXlrt
            September 22, 201 1
            Page 8 of 18 Pages

            •   The DIG questions the entire amount (S I78,200.00) of th e subcontract and its extension
                based on these alleged procedural irregularities in the award. However, the Draft Audit
                ReJXlrt also correctly observes that DOUETA's "final determination" of questioned costs
                must "recognize the value of goods and services received." Draft at page 2, footnote I. I.e. ,
                even if there were a procedural noncompliance, which there is not, it would be improper to
                reward the government with a windfall of free subcontracted goods and services when there
                is no finding that Renaissance Centre failed to perform any of the subcontracted work scope.


            Brandon S. DQwkjn.~ (Draft Audit ReJXlrt, page 16): The DIG alleges that Ihe award of this
            subcontract for assessment and interdiction services was not in compliance with FAR,
            specifically FAR 44.202-2(aX7) and (11), according to the DIG 's chart on page 5 of its Draft.
            The reasons given for the a[!eged noncompliance are failure to "perform a cost or price analysis
            or develop and e1early state in the solicitation the factors and significant subfactors that affected
            contract award and their relative imJXlTtance," and also failure to "develop a means of rating the
            bids and evaluating the past performance of the bidders." Again, DIG's finding is in error
            because:

            •    The cited FAR sections on their face do not require the contractor to perform cost analysis or
                 price analysis, state factors or subfactors, or develop a "means of rating." They do not
                 require the contractor to do anything. They simply requ ire "the government contracting
                 officer (not the contractor), in a procurement where gove rnment "consent" to a subcontract is
                 required, to "consider" various questions framed in general terms, such as whether the
                 contractor has a "sound basis" (undefined) for the subcontract award «aX7» and whether the
                 contractor has "reasonably translated" prime contract technical requirements to the
                 subcontraet «a)(11». The cited FAR sections do not make "consent" dependent on specific
                .answers to the various questions for "consideration."

            •   The alleged requirements for the contractor to perform cost analysis and price analysis. list
                factors and subfactors. and develop a " means of rating" do not exist anywhere else in the
                FAR, or in ETR's contract with DOL. The DIG has never been able to cite or quote any of
                these nonexistent FAR "requ irements," despite our repeated requests throughout this audit.

            •   The DOL contracting officer, in faet, reviewed the file for the Dawkins subcontract and
                formally consented in writing to its award. The consent was also signed offby two other
                resJXlnsible government personnel. There is no evidence thai any of these personnel did not
                carefully review and consider all required factors.

            •   In faet, ETR's selection of Mr. Dawkins was reasonable, properly documcnted, and provided
                best value to the Job Corps. ETR advertised the subcontraci procurement. It received five
                (5) resJXlnses, of which two (2) were qualified to perform the required scope of work. Mr.
                Dawkins was the lowest priced qualified bidder. ETR's estimated budget for this
                requirement (DOL approved during the pricing of the primc contract) was S30.00Ihour. This
                estimate was documented prior to the subcontract solicitation. The subcontract was awarded



                     (Th is B l oon", is intended to   ~   ...,a d a nd p ub lishM in it, cntinty. includin g the Apntndil.)




                                                                                                                 ETR Turner Sub-Contracting
                                                                          40                                    Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 2011
            Page 9 of 18 Pages

                 to Mr. Dawkins at the budgeted amount ofS30.00/hour, confirming the reasonableness of the
                 price.

            •    The OIG questions the entire amount ($43,200) of the subcontract and its extension, based on
                 these alleged procedural irregularities in the award. However, the Draft Audit Report also
                 correctly obse.....es that DOUET A' s "final determination" of questioned costs must
                 "recognize the value of goods and sef\/ices received." Draft at page 2, footnote I. I.e., even
                 if there wert a procedural noncompliance, which there is not, it would be improper to reward
                 the government with a windfall offree subcontracted goods and se..... ices when there is no
                 finding thaI Mr. Dawkins failed to perform any of the subcontracted work scope.



            BPAs Managed by ETR:

            Staples (Draft Audit Report, pages 6-7): The OIG alleges that ETR (through the sef\/ices of its
            consultant Above The Standards Procurement Group) was in noncompliance with the FAR
            (spet:ifically FAR 44.202-2(a)(7) and (J I); see chart on page 5 of the Draft Audit Report) when
            it awarded this Blanket Purchasing Agreement (BPA) for office supplies to Staples. Allegedl y,
            the noncompliances were: failure to "advertise" the procurements, failure to "develop and
            clearly state in the RFP thc factors and significant subfactors" for the procurement, and failure to
            "develop a means of rating and evaluating the bids." The OIG Draft also says, without
            evidence, that there is a " suggestion" of a "potential conflict of interest" between the consultant
            and Staples. The O[G is in error because:

            •    The cited FAR sections (44.202-2(a) (7) and (J          \»
                                                                       on their face do not require the contractor
                 to "advertise," or to "develop and state factors or subfactors," or to develop a "means of
                 rating" bids. They do not require the contractor to do anyth ing. They simply require the
                 government contracting officer (not the contractor), in a case where government "consent" to
                 a subcontract is required (and it is /WI required in the case ofa BPA), to "consider" various
                 questions framed in general terms, such as whether the contractor has a "sound basis"
                 (undefined) for the subcontract award «a)(7) , or whether the contractor has "reasonably
                 translated" prime contract technical requi rements to the subcontract «a)(II». The cited FAR
                 sections do not make the government's "consent" dependent on specific answers to the
                 various questio ns listed for "consideration."

             •   The alleged requirements for the ~ntractor to advertise, to develop and state factors or
                 subfactors, or to develop a "means of rating," do not exist anywhere else in the FAR, or in
                 ETR's contract with DOL. The O[G has never been able to cite or quote any of these
                 nonexistent alJeged "requirements," despite our repeated requests throughout th is audit.

             •   Even if "considerations" for "consent" by the contracting officer equaled a " requirement" on
                 the contractor, which they do not, there is no requirement that the government consent to a
                 BPA in the first place, hence FAR Subpart 44.2 is totally inapplicable to this transaction. A
                 BPA is not a contract in the first place, and hence not a subcontract. It is just an agreement
                 specifying provisions that will apply to future potential contracts (purchase orders, and so on)

                     !This response is inl tndec! to be rud lind Rubli!hec! in it!: r nlirPly. including th e Apptndil.)




                                                                                                            ETR Turner Sub-Contracting
                                                                      41                                   Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audi t Report
            September 22, 2011
            Page 10 of 18 Pages

                if there are any in the future. See discussion and authorit ies cited in our cover lener. Hence.
                even when understood as questions fo r the contracting officer's "consideration," FAR
                44.202-2(a)(7) and (II) are inapplicable here.

            •   The OIG provides no evidence for its false "suggestion" that the consultant had a "potential
                conflict of interest" with Staples. Thc only rationale given by the OIG is that Staples is one
                of the consultant's "premier vendors." This is not evidence of a "potential conflict of
                interest," not evcn a "suggested" potential conflict. On its face, it simply shows that Staples
                has a successful record of past performance with the consultant, i.e., an obvious factor
                supporting the selection of Staples for this BPA.

            •   [n fact, the selection of Staples was reasonable, properly documented, and provides best
                value to the Job Corps. Staples was the low biddcr. Contrary to the DIG's find ing,
                "evaluation factors" were in fact expressly listed in the solicitation: "service, past history,
                prici ng, commitment of company and representative, cost, and solutions." The selection
                process was highly competitive: 14 bidders were solicited and 5 submitted bids. The BPA
                protects ETR and the Job Corps by reserving ETR the freedom to cease purchasing from
                Staples if its products or prices cease to be competitive. The reasonableness of the selC(;tion
                of Staples has been confinned by the aud itors having iden tified zero unallowable or
                unreasonable office supply costs in this aud it.

            •   The DIG questions all of the costs ultimately charged for office supplies ($10,803.00 as of
                the audit date) pursuant to the Staples BPA. But lhe OIG also correctly recogn izes that any
                disallowance must take into account the value of goods and services received by the Job
                Corp, so as not to award the government a windfall offree goods and services on account of
                an procedural noncompliance. See Draft Audit Report at page 2, footnote I.


            A-Z Solutions (Draft Audit Report al page 16-17): As with Staples, the OIG alleges that ETR
            (through its consultant) was in noncompliance with FAR 44.202-2(aX7) and (II) when it
            awarded this Blanket Purchasing Agreement (SPA) for janitorial supplies to A-Z Solutions. The
            alleged noncompliances were: failure to " advertise" the BPA o pportunity, failure to perform an
            " adequate cost or pri ce analysis," failure to "develop and state" evaluation "factors and
            significant subfaetors" in the RFP, , and failure to "develop a means of rating" the bids. As with
            Staples, the OIG fa lsely alleges without any evidence that there is a "suggested .. . potential
            conflict of interest" between ETR 's consultant and A-Z Solutions simply because the consultant
            has identified A-Z as a "premier vendor" and a " Vendor Sourcing Partner." The OIG is also in
            error because:

            •   The cited FAR sections (44.202-2(a)(7) and (II» do not requ ire the contractor 10 advertise,
                to perform cost or price analysis, to develop eval uation factors or 'subfactors, or to develop a
                ''means of rati ng" bids. Thcy do not require the contractor to do anything. They simply
                require the government contracting officer (not the contractor), in cases where government
                "consent" to a subcontract is required (and it is nol required in th e case ofa S PA), to
                "consider" various questions framed in general terms, such as whether the contractor has a

                    (]bit) ruponse is inten ded to br- !'tad a nd publ i5hd in its t nti n ty. including t he AplXndil.)




                                                                                                             ETR Turner Sub-Contracting
                                                                      42                                    Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audi t Report
            September 22, 2011
            Page I I of 18 Pages

                "sound basis" (undefined) for a subcontract award ((a)(7» o r whether the contractor has
                "reasonably translated" prime contract requi rements to the subcontract «aX il ». The cited
                FAR sections do not make the government's "consent" dependent on specific answers to the
                various quest ions listed for "consideration."

            •   The alleged req uirements for the contractor to advertise, to perfonn cost or price analysis, to
                develop factors, subfactors, and a "means of rati ng" for a BPA such as this do not exist
                anywhere else in the FAR, or in ETR's contract with DOL. The DIG has never been able to
                cite or quote any of these nonexistent alleged FAR "requirements," despite our repeated
                requests throughout this audit.

            •   Even if "considerations" for "eonsent" by the contracting officer equaled a "requirement" on
                the contraetor, which they do not, there is no requirement that the government consent to a
                BPA in the first place, hence FAR Subpar 44.2 is totally inapplicable to this transaction. A
                BPA is not a contraet in the first place, and hence not a subcontract. It is just an agreement
                specifying provisions that will apply to future potential subcontracts (purchase orders, and so
                on) if there are any in the future. See discussion and authorities cited in our cover letter.
                Hence, even when understood as questions for the contracting officer's "consideration," FAR
                44.202-2(a)(7) and (I I ) are inapplicable here.

            •   The DIG provides no evidence for its false "suggestion" that the consultant had a "potential
                conflict of interest" with A-Z Soluti ons. The only rat ionale given by the DIG is that A-Z
                Solutions is a "premier vendor" and "Vendor Soureing Partner" of the consultant. Without
                more, and we are aware of nothing, this is not evidence of even a "suggested ... potential
                conflict of interest"; it is simply evidence of A-Z Solutions' credentials based on successful
                past perfonnance. i.e., obvious factors in A-Z Solutions' favor.

            •   In fact, the selection of A-Z Solutions was reasonable, properl y documented, and provides
                best value to the Job Corps. The selection process was highly competitive: 17 bidders were
                solicited, and 10 submitted bids. Contrary to the DIG's contention, "evaluation factors"
                were expressly listed in the solicitation: "service, past history, pricing, commitment of
                eompany and representative. cost, and solutions." A-Z Solutions was the second-lowest
                bidder but was judged to provide the best value, all factors considered. A-Z's pricing was
                within reasonable range of the low bidder's pricing, and A-Z is a Service Disabled Vete ran
                Owned Small Business. There is no FAR requirement to select the lowest bidder for this
                BPA. The tenns of the BPA protect ETR and the Job Corps by reserving ETR the freedom
                to cease ordering from A-Z if its products or prices cease to be competitive. The
                reasonableness of the selection of A-Z has been confinned by the fact that the auditors found
                no unreasonable or una llowable janitorial supply costs billed in this audit.

            •   The DIG questions all of the costs ultimately charged for janitOrial supplies (none as of the
                aud it date). But the DIG also correctly recognizes that any disallowance must take into
                accou nt the value of goods and services received by the Job Corps, so as not to award the
                government a windfall of free goods and services on account of a procedural
                noncompliance. See Draft Audit Report at page 2. footnote I .


                    CThi . .... oonH it inl f ndW 10: Ix !"fad a nd publi . hPd in in f ntirrly. includi ng the Ap DC ndil.)




                                                                                                                ETR Turner Sub-Contracting
                                                                       43                                      Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 20 11
            Page 12 of 18 Pages


            Expenditures Over $3,000 That Resulted In Questioned Costs.

            Allegation that evaluation f actors were not used to award cenUr BPAs. (Draft Aud it Report,
            pages 7-8): The OIG alleges that the awa rd of three Blanket Purchasing Agreements (S PAs) for
            food services did not comply with FAR 44.202-2(a)(7) and (a)(11) due to failure to state
            "factors" for award, fai lure to "develop" a "means of rating and evaluating bids," failure to
            advert ise, and fai lure to obtain and evaluate price information. The three BPAs are for food
            services from Glover Food Services, Sysco-GulfCoast, and ACC Distributors. The OIG also
            alleges that the award of the BPA to Glover " indicates a conflict ofinterest" solely on the basis
            that Glover allegedly "provided classes and seminars to ETR Turner students as part ofthe
            center's culi nary arts program." The OIG is wrong because:

            •   The cited FAR sections (44.202-2(a)(7) and (11» do not require the contractor to state
                "factors," to advertise, or to obtain or evaluate price information. They do not req uire the
                contractor to do anything. They simply require the govemment contracting officer (not the
                contractor), in a case where government "consent" to a subcontract is required (and it is not
                required in the case of a BPA), to "consider" various questions framed in general terms, such
                as whether the contractor has a "sound basis" (undefined) for a subcontract award «a)(7» , or
                whether the contractor has "reasonably translated" the prime contract technical requi rements
                to the subcontract «a)(ll». The cited FAR sections do not make the government's
                "consent" dependent on any specific answers to the various questions listed for
                "consideration."

            •   The alleged requiremcnts for thc contractor to state factors, to advertise, to develop a means
                of rating, and to obtain and evaluate price information, do not exist anywhere else in the
                FAR, or in ETR's contract with DOL. The OIG has never been ab le to cite or quote any of
                these noncxistent alleged FAR "requiremcnts," desp ite our repeated requests throughout th is
                audit.

            •   Even if th e "considerations" for "consent" equaled a " requirement" on the contractor, which
                they do not, there is no requ irement that the government consent to a BPA in the first place,
                hence FAR Subpart 44.2 is totally inapplicable here. A BP A is not a contract in the first
                place, and hence not a subcontract. It is just an agreement specifying provisions that would
                apply to potential future contracts (purchase orders, and so on) if there are any in the future.
                See discussion and authorities cited in ou r cover letter. Hence, even when understood as
                questions for the contracting officer's "consideration," FAR 44.202-2(a)(7) and (II) are
                inapplicable here.

            •   The OIG provides no evidence for its false allegation of a '·conflict of interest." "Providing
                classes and seminars to ETR Turner students as part of the center's culinary arts program,"
                whatever the O IG specifically has in mind and whether true or not, on its face has nothing to
                do with a "conflict of interest." It is the only rationale offered by the OIG for its allegation.




                    ITh is rtSOOnJt il intrnd«l to be   n:~ d ~ nd   p ublil h«l in i15 ~nti n1y. induding th e A pptndi •. l




                                                                                                                 ETR Turner Sub-Contracting
                                                                         44                                     Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 201!
            Page 13 of 18 Pages

            •   In any event, the selection of Glover, Sysco-GulfCoast, and ACC was reasonab le, properly
                documented, and providcs best value to the lob Corps. Contrary to the OIG allegation that
                the opportunity was not advertised, advcrtis ing was in fact placed in the local newspaper, the
                Albany Herald, and five (5) bids were received in response_ The auditors were provided with
                proof of this advertisement. Contrary to the OIG's allegation that price information was not
                obtained or evaluated, the Center sent the prosp«tive bidders an extensive food inventory
                spreadsheet listing all expected food purehase items based on past purchas ing history, and the
                bidders e lectronically responded, filling in the prices for the line items they were offering to
                supply. Based on this input, Center personnel created a consolidated spreadsheet reflecting
                the best prices for each listed item. The auditors were provided with this documentation.
                The consolidated spreadsheet provided the basis for the BP A pricing for all three selected
                vendors. The OIG has not identified any unreasonable pricing for any food items for any of
                the BPA vendors.

            •   As elsewhere, the OIG questions all of the costs billed under these BPAs, thus potentia!!y
                awarding the government a massive windfall of free food on the basis of alleged procedural
                shortcomings. The Draft Audit report correctly observes that the actual amount disa!!owed,
                if any, must take into account the value of subcontracted goods and services received and
                enjoyed by the government notwithstanding any procedural issue relating to the award
                process. Draft Audit Report at page 2, footnote I.


            A lleged imp roperly split p urchal'e orders. (Draft Audit Report, page 8): The OIG alleges that
            ETR fai led to comply with a requirement for "fair and open competition" under FAR 44.202-
            2(aX7) and (II) by us ing separate purchase orders under $3,000 when they should have been
            combined. The Draft confusingly refers to "ten different occasions" and " 10 expenditures" when
            th is happened, but in the same paragraph appears to refer to eleven (2 + 9) purchases. Only two
            of the ten (or perhaps eleven) purchase orders are referred to specifically by individual dollar
            value in the Draft Report, so full clarity is nOI possible. The OIG is wrong in any event because:

            •   Again, FAR 44.202-2(a)(7) and (II) on their face say nothing about the alleged
                noncompliances: nothi ng about "splitting" purchase orders, nothing about a $3,000.00
                threshold, and as explained above, nothing at all about any requirements for the contractor, as
                opposed to general questions for the contracting officer to "consider" in the event that
                government "consent" to a subcontract is required. Nor are there any such requirements on
                the ETR anywhere else in the FARor in ETR's contract with DOL. We have repeated ly
                asked the OIG to cite and quote them if there are any, and none has been found.

            •   Even in terms of "'considerations" for government consent, there is no requirement for the
                governme nt to consent to any of these subcontracts in the first place. Government consent to
                subcontracts in the case of a contractor that does not have an approved pu rchasing system
                (ETR's current status) is required only fo r: cost-reimbursement sub contracts, time-and­
                materials subcontracts, labor·hour subcontracts, and fixed-price subcontracts whose value is
                less than the "simplified acquisition threshold" ($ 150,000) and 5% of the prime contract
                value (approximately $2 million in this case). See FAR 44.201-1(b); FAR 52.244-2(d).

                    £Thi. !"floonS! is inten dc-d 10 bt ru d   ~ nd   pu blis hed in itt tnlirtty, includin g thf ApPfnd iJ,)




                                                                                                                 ETR Turner Sub-Contracting
                                                                          45                                    Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 2011
            Page 140f 18 Pages

                Each and everyone ofthc pUl'\:hases apparently questioned in this audi t finding is a fixed­
                price supply order whose value is well under $150,000, whether " split" or not "split." Hence
                FAR Subpart 44.2 is totally inapplicable.

            •   During previous phases of this audit, ETR has acknowledged that the purchases apparently
                referred 10 in this finding (though we are no longer certain, because the Draft Report does not
                indentify all of them) could have been combined in some cases, but were not, simply due to
                administrative ovenight in the daily press of managing large quantities of purchases for the
                Center. There is no evidence that the government has paid prices that were higher. or
                unreasonable, or received less value, or anything less than best value, as a result of such
                oversights. No reason is provided 10 question the entire subcontract value of these purchases
                and give the government a windfall offree procurement as a result of a procedural error, if
                any. The 0 10 acknowledges (Draft, page 2, footnote I), that such a disallowance would not
                be proper.


            Alleged inadequate justification for sole source.. (Draft Audit Report, page 8): The OIG alleges
            that "'bids were not solicited and purchase orders were awarded without competition" and
            "without justification for the sole-soun:e procurement," in violation ofF AR 44.202-2(a)(7) and
            (11), in the case of two subcontractors for High School Diploma (HSD) services, Penn Foster
            and New Learning. The 01G is wrong because:

            •   FAR 44.202-2(a)(7) and (II) impose no such requirements on the co ntractor. They simply
                state that the contracting officer (not the contractor), in a case where government consent to a
                subcontract is required (not the case here), must "consider the general questions of whether
                there is a "sound basis" (undefined) for the award «a)(7» and whether the prime contract
                requirements have been "reasonably trans lated" to the subcontract «aXil). Nor are there
                any such requirements anywhere else in the FAR or in ETR' s contract with DOL. The OIG
                has never identified any, despite our repeated requests throughout th is audit.

            •   Even as a matter of "considerations" for the contracting officer to ask about in a case where
                "consent to subcontract" is required, there is no requirement for the contracting officer to
                consent to these HSD subcontracts in the first place. Consent is only required if the
                subcontract is cost-reimbursement, time-and-materials, labor-hour, or fixed price under the
                "simplified acquisition threshold" ($ 150,000) or 5% of the prime contract price
                (approximately $2 million here). None of these criteria are met here. The Penn Foster and
                New Learning subcontracts are priced in terms of fixed prices for specific services, all of
                which are under $150,000. Hence, FAR Subpart 44.2 is entirely inapplicable here.

            •   The selection of Penn Foster and New Learning was reasonable and provided best va lue to
                the government, as fully explained and documented in earlier stages of this audit. This is not,
                in fact, a "sole source" procurement in the sense of only one vendor being used. As is
                evident, ETR selected two HSD vendors, not a sole source. Each provides value to the Job
                Corps because they olTer dilTerent HSD programs suitable to dilTerent types of credentials
                that particular Turner JCC students are expected to possess. Hence, the need for two HSD

                    (fbls nsoonw is inlfndtd \0 bt « .d . nd p .. blisho-d in it. f ntinty. in d ud ing 'he ApPfnd iJ,)




                                                                                                           ETR Turner Sub-Contracting
                                                                     46                                   Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 20 I I
            Page 15 of 18 Pages

                vendors. As previously explai ned in detail, although there a re a few other potential vendors
                in the HS D field, these are the only two that were suitable for the Turner lce students'
                demographic and particular ed ucational needs. Further, the criteria for lob Corps centers
                selecting these types of HSD providers are contained in Job Corps PRH.

            •   The OIG has fo un d no evidence and made no finding that the services provided by Penn
                Foster or New Learning failed to provide the required value to the Job Corps at a reasonable
                price. Again, therefore, to disallow the entire questioned amount, which is equivalent to the
                entire subcontract val ues, would provide the government a windfall of free services on
                account of an alleged procedural irregularity. That would be improper, as the Draft Audit
                Report acknow ledges (page 2, footnote I).


            Allegation that ErR circumvented competitive bidding by using improper bids. (Draft Aud it
            Report at pages 8-9): The O1G alleges that in the case of purchase orders for painting services
            (totaling $34,960) and carpeting ($9,120), ETR improperly " used data submitted by the vendors
            for unrelated work to calculate the bid amounts." The OIG also alleges that for a $9,777
            purchase of trash cans, ETR improperly "obtained one bid and compared it to prices listed on the
            internet by two other vendors." Finally, for pu rchases of mattresses total ing $55,8 12, the OIG
            alleges that ETR improperly "used a GSA approved vendors list to obtain two bids for dormitory
            mattresses and then selected a lower bid from a vendor that was not on the GSA list." Without
            ciling any FAR provisions, the OlG concludes that "None of these four methods complied with
            FAR requi rements for fair and open competition and adequate cost or price analysis or price
            comparisons," and questions all $109,669 in costs for these "four expenditures." Because the
            Draft Audi t Report provided by the OIG does not identify the specific transactions, our response
            can only surmise based on previous communications and the dollar amoun ts mentioned in the
            dra ft. Based on th is inform ation, the OIG is wrong because:

            •   The allegation regarding use of "data submitted by the vendors for prior unrelated work" is a
                new one, not made in previous drafts that the OIG has shared with us. The reference to
                "$34,960" appears to pertain to subcontracts with David Painting (check #- 130990) and the
                reference to "$9, 120" apparently pertains to a subcontract with Carpets of Albany (chec k #
                130476). ETR denies pricing these purchases based on data from "unrelated won:" and we
                are not even sure what th e allegati on means. The OIG presents no evidence for th is claim
                and we are aware of non e. The contracts were priced based on bids from the vendors
                specific to the goods and services procured, not " unrelated work." Our purchasing files,
                reviewed by the auditors, confirm this.

            •   With respect to the allegation that ETR "obtained one bid and com pared it to prices listed on
                the internet by two other vendors" for a "$9,777 purchase of trash cans," this apparently
                pertains to a subcontract wi th Barco Products (check #- 131226). It is not clear what the
                nature of the alleged impropriety here is. No FAR or contractual provision is cited (despite
                our requests to the OIG) that would prohibit a contractor from using internet pricing sources
                to confirm the re asonableness of a vendor quotes, and there is no such prohi bition. On its
                face, the practice is a reasonable techn ique for checking price reasonableness. Note that the

                    Uhi:! moon$! is   ;nl ~ndN   10 M rtad and puhli l hrd in ill; r nlirtty, indud·n2 the ApP!nd·K.)




                                                                                                          ETR Turner Sub-Contracting
                                                                     47                                  Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 2011
            Page 160fl8 Pages

                allegation that multiple vendors' prices were considered itself contradicts the subheader for
                this allegation that competitive bidding was "circumvented."

            •   With respect to the allegation concerning procurement of$55,812 worth of dormitory
                mattresses (apparently from Lasting Impressions, check 1# 129573), the OIG again does not
                explain what is improper or noncompliant. There is no FAR or contractual provision that
                prohibits a contractor from considering bids from multiple sources including vendors on
                GSA lists and those not on such lists. The DIG has never provided a FAR or contractual
                basis for the alleged "requirement," despite our repeated reCluests. On its face, common
                sense suggests that a contractor should not be prevented, and the Job Corps wou ld benefit,
                from considerati on of good qualified vendors, from whatever list. Again, the evaluation of
                multiple Cluotes, acknowledged in the allegation itself, contradicts the DIG's simultaneous
                allegation that competition was "circumvented."

            •   There is no allegation or finding that any of these purchases resulted in quality or va lue that
                was unsatisfactory for the Job Corps mission in any way. Yel, the entirety of the
                subcontracted oosts for these transactions is questioned on the basis of the alleged,
                unexplained, unsubstantiated procedural irregularities. As the Draft Audit reeognizes (page
                2, footnote I), any final determination must take into account the actua l value of the goods
                and. services enjoyed by the Job Corps, which is undisputed.


            Multiplication o(Questioned Costs Based on "Statistical SQMple. ..

            Despite our requests for clarification in response to a prior draft, the Oraft. Audit report provides
            no meaningful exp lanation or justifieation for increasing the amount of Cluestioned costs from
            $ 1,029,415.00 based on the transaetions diseussed above, up to " as high as $3,078,433." See
            Draft Audit Report at page 9. The auditors state they have "95 percent" confidence for this
            infe rence but do not explain: how their "statistical sample" was selected, why they believe it to
            be represe ntat ive of the larger universe, and the basis for the "confidence" level. The aud itors
            cOrre<:tly require that ETR substantiate its own claimed a!lowable costs. Consequently, it should
            be expetted, given the damaging and inflammatory potential orthis type of multiplication
            practice, that the DIG's own substantiation for questioning at least $2 million in allegedly
            unallowable costs, based on an unspecified, unexp lained "sampling" methodology, be much
            more detailed and justified.


            Alfqed "Weak Con trol Environment."

            The OIG alleges that "ETRffumer had not established a control environment, including
            procedures and oversight, to ensu re compliance with FAR." Draft Audit Report at page 9. ErR.
            disputes this allegation.

             As a fundamental point in response and with all due respect, the OIG auditors must ensure that
             they are themselves correctly understanding the "FAR compliance requi rements" they are

                     Ubi! rUOOnSS: is in!ended 10 be cud 'nd publ"5hrd in ito tnl· rtly. including Ih e Appendj!,)




                                                                                                       ETR Turner Sub-Contracting
                                                                   48                                 Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 20 II
            Page 17 of 18 Pages

            attempting to invoke within this Draft Audit Report. In the case of this audit, thc OIG has failed
            to identify any FAR, or contractual, provisions, which support the allegcd "requiremcnts" that
            supposedly have nOI been complied with . .. despite ETR's repeated requests and explanations, at
            considerable expense to this small business. This should not have been necessary. Regrenab ly,
            we are driven to the conclusion that this audit scope of work was based on an incorrect premise,
            and should have becn properly and lcgally vetted within the OIG and DOL Solicitors Office
            beforehand.

            In fact, ETR has a robust conlrol environment of procedure and oversight for FAR compliance,
            which has been shared with and ex plained to the auditors through the six (6) month audit period.
            Our special concern at this time is with the allegations in the Dra.ft Audit Report (page 9)
            regarding the unapproved status of the company's purchasing system. The Draft Audit report
            leaves the false impression that ETR is chronically deficient in this area over a history of several
            years. This is incorrect and misrepresents the facts involved.

            DOL purchasing system reviews were cited as occurring at the Turner Center in CYs 2008 and
            2009. These referenced DOL reviews were both incomplete CPSR Reviews that were initiated,
            but later postponed and cancelled by DOL before any final reports were issued or concluded.
            ETR provided the fo llowing information to the OIG Audit Team, and contends that using these
            cancelled DOL CPSR Reviews and any basis to support a non-<:ompliance finding is not
            appropriate.

            •   ETR's first DOL CPSR Review was initiated on February 4-8, 2008 at the ETR Corporate
                Office and on February 26-28, 2008 at the Iroquois Job Corps Center.

            •   This DOL CPSR Review was performed by then National Office of Job Corps Support
                Contractor, Exceed Corporation. Following this ini tial rev iew, ElR's USDOUOASAM
                Contracting Officer issued a normally requ ired corrective action plan as part of the rev iew
                and approval process. On August 20, 2008, ETR submitted the requested CPSR re lated
                corrective act ion plan to its USDOUOASAM Contracting Officer. On September 25,.2008,
                ETR's corrective action plan was approved by its USDOUOASAM Contracting Officer.

            •    On Mareh 12,2009, ETR was notified that EBSI, LLC had been commissioned on Job
                 Corps' behalfto conduct the CPSR Re-Assessment, with the explanation that EBSI, LLC
                ·was the ncw National Office of Job Corps Support Contractor for CPSR Reviews; thus,
                 replacing the Exceed Corporation. This EBSI conducted CPSR Re-Assessment took place
                 on April 28-30, 2009 al the Turner Job Corps Center.

            •   On September 22, 2009, based on the EElSI conducted Re-Assessment, ETR's
                USDOUOASAM Contracting Officer issued a second request for a corrective action plan.
                Upon reviewing the basis for this additional corrective action plan; particularly since ETR
                had previously received DOL approval for its earlier plan on September 25, 2008, ETR
                detennined there were conflicting findings between the initial CPSR Review conducted by
                Exceed and the CPSR Re-Assessment Review conducted by EBSI, LLC. On October 12,
                2009, ETR sent official correspondence to its USDOUOASAM Contracting Officer

                    (fb i)   f1' .po n.~   i. inln d rd 10 be rnd . nd Dubl i. hrd in its tnlirt1y. indu ding Iht APlwndb.l




                                                                                                                ETR Turner Sub-Contracting
                                                                          49                                   Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





            ETR Response to Draft Audit Report
            September 22, 2011
            Page 18 of 18 Pages

                outlining the co nflicts between th e initial CPSR Review and DOL approved CAP and the Re­
                Assessment Review and newly requested CAP, This ETR notification was acknowledged as
                received by DOL, with no further ETR CPSR related activity for nearly two years, until
                August 201 I.

            •   On June 10, 20 11, ETR was notified by USDOUETAlOCM Administrator that a new CPSR
                Review would be conducted on ETR during the period of August 8-12, 2011 at the ETR
                Corporate Office and on August 22-26, 20 11 at the Hartford Job Corps Academy. ETR was
                advised by the USDOUETAlOCM representative that all prior CPSR Review activities
                conducted by Exceed Corporation and EBSI, LLC were considered incomplete, null and
                voided.

            •   At the time of this response, ETR's only complete CPSR Review is currently on-going and
                has not been finalized by USDOUETAlOCM.




            (End ofETR Response)

                    Ubi' BSWPH i.   ipl~nd rd   10 be nad and   publ iJII~d   In il'   ~nl;'!ty,   inrlu d ing the ApDtndi!.,l




                                                                                                                   ETR Turner Sub-Contracting
                                                                    50                                            Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                                                                           Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Michael Elliott (Audit
Manager), Dr. James Turkvant (Lead Auditor), Nicholas Cumby , Sheila Lay, and Daniel
Rhodes (Auditors), and Steve Witherspoon (Reviewer).




                                                                ETR Turner Sub-Contracting
                                                   51          Report No. 26-11-003-03-370
U.S. Department of Labor – Office of Inspector General 





                            PAGE INTENTIONALLY LEFT BLANK 





                                                            ETR Turner Sub-Contracting
                                                   52      Report No. 26-11-003-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
